Case: 19-5390

Document: 23-1

Filed: 07/10/2020

Page: 1

Case No. 19-5390
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
GEORGE J. RAUDENBUSH, III
Plaintiff - Appellant
v.
MONROE COUNTY, TN; BILL BIVENS, Sheriff of Monroe County; TOWN OF TELLICO
PLAINS TENNESSEE; BRIAN MILLSAPS, Officer; TRAVIS JONES, Officer
Defendants - Appellees

Appellant/Petitioner having previously been advised that failure to satisfy certain specified
obligations would result in dismissal of the case for want of prosecution and it appearing that the
appellant/petitioner has failed to satisfy the following obligation(s):
The proper fee was not paid by July 2, 2020.
It is therefore ORDERED that this cause be, and it hereby is, dismissed for want of
prosecution.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: July 10, 2020

1

Case: 19-5390

Document: 19-2

Filed: 05/12/2020

Page: 1

No. 19-5390
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

GEORGE J. RAUDENBUSH III,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellant,
v.

MONROE COUNTY, TN, et al„
Defendants-Appellees.

FILED

May 12, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COLE, Chief Judge; GUY and BUSH, Circuit Judges.

George J. Raudenbush III, proceeding pro se, moves the court to reconsider its November
4, 2019, order denying his motion to proceed in forma pauperis on appeal from the dismissal of
his civil rights complaint filed under 42 U.S.C. § 1983 and Tennessee law.
On careful consideration, the court concludes that it did not overlook or misapprehend any
point of law or fact when it issued its order. See Fed. R. App. P. 40(a)(2). The motion for
reconsideration is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

2

Case: 19-5390

Document: 15-1

Filed: 11/04/2019

Page: 1

No. 19-5390

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

GEORGE J. RAUDENBUSH, III,
Plaintiff-Appellant,
v.
MONROE COUNTY, TENNESSEE, et al„
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)

Nov 04, 2019
DEBORAH S. HUNT, Clerk

ORDER

George J. Raudenbush, III, proceeding pro se, appeals the dismissal of his civil rights
complaint filed pursuant to 42 U.S.C. § 1983 and Tennessee law. The district court certified that
an appeal could not be taken in good faith and denied Raudenbush’s motion to proceed in forma
pauperis on appeal. See 28 U.S.C § 1915(a)(3). Raudenbush now requests permission from this
court to proceed in forma pauperis on appeal. See Fed. R. App. P. 24(a)(5).
In 2011, Raudenbush filed a complaint against Monroe County, Tennessee; Monroe
County Sheriff Bill Bivens; Monroe County Police Officer Travis Jones; the Town of Tellico
Plains, Tennessee; Tellico Plains Police Officer Brian Millsaps; and Southern Health Partners,
Incorporated (SHP), a private corporation that provides medical treatment to inmates at the
Monroe County Jail. He subsequently filed an amended complaint against the same defendants,
asserting that, on December 30, 2010, Millsaps stopped his vehicle for a traffic violation and then
“used his flashlight to break [Raudenbush’s] car window and later struck [Raudenbush] violently
on the head with his flashlight.” Raudenbush claims that he was injured as a result of Millsaps’s
conduct, suffering a laceration on his finger and a head injury that caused him to develop migraine
headaches. Raudenbush also alleges that an officer took him to a hospital, but refused to allow his
head injury to be treated, and that Millsaps stopped, assaulted, and arrested Raudenbush in

Case: 19-5390

Document: 15-1

Filed: 11/04/2019

Page: 2

No. 19-5390
-2retaliation for a prior excessive force complaint Raudenbush had filed against Millsaps, as well as
complaints made against the Monroe County Sheriffs Department by a Christian group with
which Raudenbush is associated.
Raudenbush further claims that while he was incarcerated in Monroe County Jail he was:
“denied a shower, running water to wash with, soap/toothpaste or toothbrush, a working toilet,
food, a bed, and proper hygiene for medical care” for seventy-two hours; denied medical care for
migraine headaches for fifty-one days; “forced to sleep on a cold, bare, cement floor for 28 days,”
causing “back pain and problems” and numbness in his left leg; denied medical treatment for a
cough that produced blood; “placed in a cell with infected and contagious inmates”; “exposed to
extreme overcrowding conditions in his cell”; denied his mail; and denied telephone use.
Raudenbush alleges that “an agent and employee of [SHP] refused to treat his severe throat
infection with antibiotics,” and when he asked the “agent and employee for information to make a
complaint with [SHP], the temperature in [his] cell was intentionally lowered to 45-50 degrees all
night and the next day.”
Raudenbush raises a number of claims arising out of this alleged conduct: violation of his
Fourth and Fourteenth Amendment rights, conspiracy to violate his civil rights, unlawful arrest,
retaliation, excessive force, denial of medical care and unconstitutional conditions of confinement,
failure “to intervene to protect [him] from” civil rights violations, failure to train police officers
adequately, and negligent hiring. He also asserts state-law claims for “false arrest, assault, battery,
false imprisonment, malicious prosecution, conspiracy, negligent and intentional infliction of
emotional distress, [and] outrageous conduct.” He seeks monetary, injunctive, and declaratory
relief.
After the district court granted SHP’s motion to dismiss it as a defendant, the case was
stayed until October 26, 2017, pending resolution of Raudenbush’s state criminal proceedings. As
a result of the December 2010, traffic stop, Raudenbush was arrested and charged with various
offenses, and after a second trial, a jury found him guilty of “driving on a suspended license,
violating the financial responsibility law, speeding, felony evading arrest, misdemeanor evading

Case: 19-5390

Document: 15-1

Filed: 11/04/2019

Page: 3

No. 19-5390
-3 arrest, assault, and reckless endangerment.” State v. Raudenbush, No. E2015-674-CCA-R3-CD,
2017 WL 2443079 (Term. Crim. App. June 6, 2017). His convictions were affirmed on appeal,
but the felony-evading-arrest and misdemeanor-evading-arrest convictions were remanded for
merger. Id.
The defendants filed motions for summary judgment under Federal Rule of Civil Procedure
56, which Raudenbush opposed. The district court granted the motions for summary judgment,
dismissing his federal-law claims with prejudice and his state-law claims without prejudice, and
dismissed the case. Raudenbush filed a timely appeal and a motion to proceed in forma pauperis
on appeal. A magistrate judge recommended denying Raudenbush’s motion. Over Raudenbush’s
objections, the district court accepted and adopted the magistrate judge’s report and
recommendation and denied his motion to proceed in forma pauperis.
The district court dismissed Raudenbush’s claims against SHP in 2012, finding that they
were based on a respondeat superior theory. Respondeat superior cannot provide the basis for
liability in § 1983 actions. See Monell v. Dep’t ofSoc. Servs. ofN.Y., 436 U.S. 658, 691 (1978).
The district court held that Raudenbush’s excessive-force claim against Millsaps also could not
survive summary judgment, because there was insufficient evidence for a jury to find that the force
Millsaps used was objectively unreasonable and excessive, given that “Raudenbush ignored Sgt.
Millsaps[’s] lawful commands to exit the vehicle; he was actively resisting arrest; and attempting
to evade arrest by flight”; there was no evidence that Millsaps struck Raudenbush on the head with
his flashlight; and “Raudenbush’s criminal convictions arising out of the stop affirmatively bar his
excessive force claim.” See Heckv. Humphrey, 512 U.S. 477,486-87 (1994); Graham v. Connor,
490 U.S. 386, 388, 396 (1989). The district court also held that Raudenbush’s Fourth Amendment
claim against Jones for failure “to prevent or stop the use of force by” Millsaps could not survive
summary judgment, because Millsaps “did not use excessive force against Raudenbush,” and even
assuming that Raudenbush could establish an excessive-force claim against Millsaps, there was no
evidence that Jones could have prevented or stopped any excessive use of force. See Turner v.
Scott, 119 F.3d 425, 429 (6th Cir. 1997). The district court rejected Raudenbush’s failure-to-

s

Case: 19-5390

Document: 15-1

Filed: 11/04/2019

Page: 4

No. 19-5390
-4prevent-excessive-force claim against Bivens, because there was no evidence that Bivens “was at
the scene of his arrest.”
The district court also held that Raudenbush’s claim against the Town of Tellico Plains
could not survive summary judgment, because he “failed to establish a constitutional violation for
excessive force” in order to support § 1983 municipal liability. See Miller v. Sanilac County, 606
F.3d 240, 254-55 (6th Cir. 2010). The district court further granted summary judgment for
Raudenbush’s municipal liability claim against Monroe County, because Millsaps was employed
by the Tellico Plains Police Department, and Raudenbush failed to plead facts to support an
excessive force claim against any Monroe County officers.
As to the unlawful-arrest claim against Millsaps, the district court held that Millsaps was
entitled to summary judgment, since Raudenbush was found guilty of the charges for which he
was arrested.

The district court noted that Raudenbush had “a full and fair opportunity to

challenge” whether “probable cause existed for [his] arrest,” that the jury determined that probable
cause supported the arrest, and that, as a result, “the judgments of conviction collaterally estop him
from asserting that he was arrested without probable cause.” See Fellowship of Christ Church v.
Thorburn, 758 F.2d 1140, 1144 (6th Cir. 1985).
The district court also granted summary judgment on Raudenbush’s conspiracy claim
against Millsaps brought under 42 U.S.C. §§ 1985 and 1986, because Raudenbush, “pleaded no
facts to establish the existence of a conspiracy nor did he allege any racial or class-based
discriminatory animus,” and his conspiracy claim was conclusory and factually unsupported. See
Griffin v. Breckenridge, 403 U.S. 88 (1971); Gutierrez v. Lynch, 826 F.2d 1534, 1538 (6th Cir.
1987). The district court noted that Raudenbush’s § 1986 claim also failed, because § 1986 claims
are “dependent upon the existence of a valid § 1985 cause of action,” which he did not assert. See
Radvansky v. City of Olmsted Falls, 395 F.3d 291, 315 (6th Cir. 2005).
To the extent that Raudenbush asserted a substantive due process claim under the
Fourteenth Amendment based on excessive force, the district court held that it would not survive
summary judgment, because excessive-force claims are subject to the “objective reasonableness”

Case: 19-5390

Document: 15-1

Filed: 11/04/2019

Page: 5

No. 19-5390
-5 standard of the Fourth Amendment. See Graham, 490 U.S. at 388. The district court further
granted the defendants summary judgment on Raudenbush’s First Amendment retaliation claim,
because Bivens and Jones were not involved in his traffic stop, and Millsaps “had probable cause
to arrest [him] for the criminal charges in this case.” See Nieves v. Bartlett, 139 S. Ct. 1715, 1727
(2019).
As to Raudenbush’s claims based on the alleged denial of medical treatment and his
conditions of confinement, the district court granted summary judgment to the defendants as well.
Since Raudenbush was treated at a hospital for a cut on his finger, prescribed medication, and
provided an x-ray of his hand; there was no evidence that Bivens, who transported him to the
hospital, denied him medical treatment while there; Raudenbush was treated and prescribed
medication for a sore throat; and his medical records did not include any requests for treatment of
migraine headaches, the district court found that Raudenbush’s denial-of-medical-treatment claims
were not supported by the record. And since the district court found there was no denial of medical
treatment, it found that Raudenbush could not establish municipal liability on the part of Monroe
County.
The district court further found that Raudenbush’s conditions of confinement claim was
foreclosed, since he merely asserted “temporary inconveniences” that did not rise to the level of
constitutional violations. See Richmond v. Settles, 450 F. App’x 448, 455 (6th Cir. 2011); Dellis
v. Corr. Corp. ofAm., 257 F.3d 508,511 (6th Cir. 2001). The district court noted that Raudenbush
was provided a thicker sleeping mat when he complained about the denseness of his mat, that there
was no evidence to support his claims that he was forced to sleep on a concrete floor, that he was
placed in a cell with forty-four other inmates, that his mail was not delivered, that the temperature
in his cell was lowered to an uncomfortable level, or that he was denied telephone use while
confined in jail. The “Constitution does not mandate comfortable prisons.” Rhodes v. Chapman,
452 U.S. 337, 349(1981).
The district court declined “to exercise supplemental jurisdiction” over Raudenbush’s
state-law claims following the dismissal of his § 1983 claims.

''V ?

Case: 19-5390

Document: 15-1

Filed: 11/04/2019

Page: 6

No. 19-5390
-6This court may grant a motion to proceed in forma pauperis if it determines that an appeal
would be taken in good faith and the movant is indigent. See Owens v. Keeling, 461 F.3d 763, 776
(6th Cir. 2006). A frivolous appeal, one that “lacks an arguable basis either in law or in fact,”
would not be taken in good faith. Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also
Coppedge v. United States, 369 U.S. 438, 445 (1962).
For the reasons discussed by the district court, an appeal in this case would be frivolous.
See Neitzke, 490 U.S. at 325. Accordingly, the motion to proceed in forma pauperis is DENIED.
Unless Raudenbush pays the $505 filing fee to the district court within thirty days of the entry of
this order, this appeal will be dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

f

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE

GEORGE JOSEPH RAUDENBUSH, III,

)
)
)
)
)

Plaintiff,
v.

)

MONROE COUNTY, TENNESSEE, et al.,
Defendants.

No.: 3:Il-CV-00625
REEVES/POPLIN

)
)
)

MEMORANDUM AND ORDER
On June 3, 2019, the Honorable Debra C. Poplin, United States Magistrate Judge,
filed a 5-page Report and Recommendation [R. 139] in which she recommended that
plaintiffs Application to Appeal in Forma Pauperis be denied.
This matter is before the court for consideration of plaintiffs objections [R. 141] to
the Report and Recommendation. As required by 28 U.S.C. § 36(b)(1) and Rule 72(b) of
the Federal Rules of Civil Procedure, the court has now undertaken a de novo review of
those portions of the Report and Recommendation to which plaintiff objects. For the
reasons that follow, the court finds plaintiffs objections without merit and the objections
will be overruled.
First, plaintiff attempts to assert a new claim against his counsel in the underlying
criminal case for ineffective assistance of counsel. Plaintiffs former counsel, Mr. Gulley,

flpp. f
Case 3:ll-cv-00625-PLR-DCP Document 142 Filed 06/21/19 Page 1 of 3 PagelD #: 1103

has never been a part of this action, and it is too late to add him now as the statute of
limitations has expired.
Second, plaintiff asserts that this court relied on “defective” Tennessee State court
records. However, this is a matter that plaintiff should have addressed in his state criminal
case. This court is without authority to alter the state court records.
Finally, plaintiff takes issue with the court failing to allow him more time to respond
to defendants’ motions for summary judgment. However, the court granted plaintiff
additional time, although less time than plaintiff requested. As the court noted in its order,
the case had been pending since 2011, and it was time for the case to move forward.
Plaintiff was familiar with the facts of his case, and filed several responses to defendants’
motions for summary judgment. See R. 120 (58 pages); R. 121 (40 pages); R. 122 (43
pages); R. 23 (52 pages); R. 124 (45 pages); R. 125 (22 pages); R. 126 (14 pages); R. 129
(7 pages). Thus, the court finds that plaintiff had sufficient time to respond and make his
case.
After a careful review of this matter, the court is in complete agreement with the
Magistrate Judge’s recommendation that plaintiffs motion for leave to appeal in forma
pauperis be denied. The court agrees that an appeal by plaintiff is not taken in good faith
because it “lacks an arguable basis either in law or in fact.” Shepard v. Morvzin, 2016 WL
10592246 at 1 (6th Cir. Dec. 9, 2016). See R. 133 Memorandum Opinion.

/}//* ^
Case 3:ll-cv-00625-PLR-DCP Document 142 Filed 06/21/19 Page 2 of 3 PagelD #: 1104

Accordingly, the court ACCEPTS IN WHOLE the Report and Recommendation
under 28 U.S.C. § 636(b)(1); Fed.R.Civ.P. 72(b). It is ORDERED, for the reasons stated
in the Report and Recommendation, which the Court adopts and incorporates into its ruling
that plaintiffs motion for leave to appeal in forma pauperis [R. 137] is DENIED.
Enter:

/MriA
yCHIEF UNITED STATES DISTRICT JUDGE

3

//

Case 3:ll-cv-00625-PLR-DCP Document 142 Filed 06/21/19 Page 3 of 3 PagelD #: 1105

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE

GEORGE JOSEPH RAUDENBUSH, III,
Plaintiff,
v.

MONROE COUNTY, TENNESSEE, etal.,
Defendants.

)
)
)
)
)
)
)
)
)

No. 3:11 -cv-00625-PLR-DCP

REPORT AND RECOMMENDATION
This case is before the undersigned pursuant to 28 U.S.C. § 636, the Rules of this Court,
and the Order of Referral [Doc. 138] of the Chief District Judge.
Now before the Court is Plaintiffs Application to Appeal In Forma Pauperis
(“Application”) [Doc. 137]. Plaintiff seeks to appeal the Chief District Judge’s findings regarding
(1) the Summary Judgment Opinion [Doc. 133] and (2) Plaintiffs Motion for Reconsideration
[Doc. 117]. Accordingly, for the reasons explained below, the Court RECOMMENDS Plaintiff s
Application [Doc. 137] be DENIED.
I.

ANALYSIS
Federal Rule of Appellate Procedure 24(a)(1) provides that a party in a civil action “who

desires to appeal in forma pauperis must file a motion in the district court.” In addition, Rule
24(a)(2) states, “If the district court grants the motion, the party may proceed on appeal without
prepaying or giving security for fees and costs, unless a statute provides otherwise.” Fed. R. App.
P. 24(a)(2). “If the district court denies the motion, it must state its reasons in writing.” Id.

/*?
Case 3:ll-cv-00625-PLR-DCP Document 139 Filed 06/03/19 Page 1 of 5 PagelD#:1077

Further, 28 U.S.C. § 1915(a)(3) provides that “[a]n appeal may not be taken in forma pauperis if
the trial court certifies in writing that it is not taken in good faith.”
The Court has reviewed the instant Application, and Plaintiffs financial status enables him
to proceed in forma pauperis. However, the Court finds that Plaintiffs appeal is not taken in good
faith. See Shepard v. Morvzin, No. 16-3236, 2016 WL 10592246, at *1 (6th Cir. Dec. 9, 2016)
(explaining that an appeal that Tacks an arguable basis either in law or in fact’ would not be taken
in good faith”) (quoting Neitzke v. Williams, 490 U.S. 319, 325 (1989)).
First, Plaintiff appeals the Chief District Judge’s findings in the summary judgment
opinion. Particularly, Plaintiff contends the Chief District Judge relied on “false and misleading
information” in Plaintiff s criminal case. [Doc. 137-1 at 10]. Secondly, Plaintiff appeals the Chief
District Judge’s denial of Plaintiff s Motion for Reconsideration [Doc. 117]. Specifically, Plaintiff
argues the Court should have allowed him more time to respond to Defendants’ Motions for
Summary Judgment [Docs. 106, 110]. For the following reasons, Plaintiffs appeals have no
arguable basis in law or fact.
A.

Summary Judgment Opinion

First, the facts of this case establish Defendants did not use excessive force by breaking
Plaintiffs car window when placing him under arrest because Plaintiff failed to comply with
Defendant Millsaps’s lawful demands and proceeded to speed away from the officer. [Doc. 133
at 10]. The law is clear that a plaintiff cannot bring a § 1983 action which challenges the validity
of a state criminal conviction unless such conviction has since been invalidated.

Heck v.

Humphrey, 512 U.S. 477, 487 (1994). Here, Plaintiff was convicted of evading arrest, reckless
endangerment, and assault, and those convictions have not since been invalidated.

2

AW /J

Case 3:ll-cv-00625-PLR-DCP Document 139 Filed 06/03/19 Page 2 of 5 PagelD#:1078

Further, collateral estoppel precludes Plaintiff from raising the issue of whether his arrest
was unlawful. As the Chief District Judge stated, Plaintiff was “found guilty of speeding, reckless
endangerment, simple assault, evading arrest with risk of death, violation of Financial
Responsibility, and driving on a suspended license.” [Doc. 133 at 13]. Thus, whether Plaintiffs
arrest was lawful had already been decided, so collateral estoppel precludes re-litigating that issue.
In addition, the Chief District Judge found Plaintiff did not adequately plead a claim for
conspiracy under 42 U.S.C. §§ 1985 and 1986 because his Complaint contained conclusory
allegations without any factual support. Further, Plaintiff cannot assert a substantive due process
claim for excessive force under the Fourteenth Amendment because the Fourth Amendment
governs that claim. Likewise, the Chief District Judge found Defendants did not retaliate against
Plaintiff for exercising his right to oppose police action because Defendant Millsaps had probable
cause to arrest Plaintiff. [Id. at 19].
Further, the facts of this case fail to establish that Defendants denied Plaintiff medical care.
Officer Bivens accompanied Plaintiff to the hospital where Plaintiff received care for his injured
finger. Likewise, the jail medical staff consistently provided Plaintiff medical care as necessary.
In addition, the jail conditions during Plaintiffs incarceration did not violate the Fourteenth or
Eighth Amendments because the record showed that the jail provided Plaintiff with adequate
accommodations, and his complaints about living conditions were “no more than temporary
inconveniences.” [Id. at 23]. Finally, with respect to Plaintiffs remaining state law claims, the
Chief District Judge declined to exercise supplemental jurisdiction over such claims and dismissed
them without prejudice. [Id. at 26].

Pursuant to 28 U.S.C. § 1367(c)(3), “district courts may

decline to exercise supplemental jurisdiction over a claim... if the district court has dismissed all
claims over which it has original jurisdiction”.

3

Case 3:ll-cv-00625-PLR-DCP Document 139 Filed 06/03/19 Page 3 of 5 PagelD #: 1079

B.

Motion for Reconsideration

As mentioned above, Plaintiff appeals the Court’s order [Doc. 117] denying him an
additional sixty (60) days to respond to Defendants’ Motions for Summary Judgment. After
Defendants filed their Motions for Summary Judgment [Docs. 106, 110], Plaintiff filed a Motion
for Extension of Time [Doc. 115] requesting an additional sixty (60) days to respond to
Defendants’ Motions for Summary Judgment.

In that Motion, Plaintiff emphasized that

Defendants’ Motions were lengthy and that he lacks the resources and legal training of Defendants’
attorneys to respond within the time required by the Court. See E.D. Term. L.R. 7.1(a) (stating
parties have twenty-one (21) to respond to dispositive motions unless the Court orders otherwise).
The Chief District Judge granted Plaintiffs Motion for additional time, but allowed Plaintiff only
an additional twelve (12) days to respond. In reaching that decision, the Chief District Judge
recognized Plaintiffs disadvantageous situation, but emphasized that this case had been ongoing
for several years and that it needed to “move forward.” [Doc. 116].
While Plaintiff has no legal training, Plaintiff had thirty-three (33) days to respond to
Defendants’ Motions. This additional time was sufficient for Plaintiff to respond effectively to
Defendants’ Motion, especially considering the extensive time this case has been pending in this
Court.

Furthermore, Defendants’ Motions were based on the same factual background as

Plaintiffs criminal case. Therefore, Plaintiff should be considerably familiar with the facts of this
case and not need the substantial additional time he requested.

4

AT

Case 3:ll-cv-00625-PLR-DCP Document 139 Filed 06/03/19 Page 4 of 5 PagelD #: 1080

II.

CONCLUSION
Given the above findings by the Chief District Judge, the undersigned does not find

Plaintiffs appeal to be in good faith, and therefore, the Court RECOMMENDS1 that the
Application to Appeal In Formal Pauperis [Doc. 137] be DENIED.
Respectfully submitted,

Debra C. Poplin
SJ
United States Magistrate Judge

1 Any objections to this Report and Recommendation must be served and filed within
fourteen (14) days after service of a copy of this recommended disposition on the objecting party.
Fed. R. Civ. P. 72(b)(2). Such objections must conform to the requirements of Federal Rule of
Civil Procedure 72(b). Failure to file objections within the time specified waives the right to appeal
the District Court’s order. Thomas v. Am, 474 U.S. 140,153-54 (1985). “[T]he district court need
not provide de novo review where objections [to the Report and Recommendation] are ‘ [f]rivolous,
conclusive or general.’” Mira v. Marshall, 806 F.2d 636, 637 (6th Cir. 1986) (quoting Nettles v.
Wainwright, 677 F.2d 404, 410 n.8 (5th Cir.1982)). Only specific objections are reserved for
appellate review. Smith v. Detroit Federation of Teachers, 829 F.2d 1370, 1373 (6th Cir. 1987).
//

5

Case 3:ll-cv-00625-PLR-DCP Document 139 Filed 06/03/19 Page 5 of 5 PagelD#:1081

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE

GEORGE JOSEPH RAUDENBUSH, III,

)
)
)

Plaintiff,
y.

MONROE COUNTY, TENNESSEE,
BILL BIVENS, SHERIFF OF MONROE COUNTY,
TOWN OF TELLICO PLAINS, TENNESSEE,
OFFICER BRIAN MILLSAPS, and
OFFICER TRAVIS JONES,

)
)
)
)
)

No. 3:ll-cv-00625
REEVES/POPLIN

)
)
)
)
)

Defendants.

MEMORANDUM OPINION
George Raudenbush brings this civil rights action under 42 U.S.C. § 1983 alleging
excessive force and denial of medical care following a traffic stop, subsequent arrest, and
detention in the Monroe County Jail. All defendants move for summary judgment. For
the reasons that follow, defendants’ motions for summary judgment will be granted and
this action dismissed.

i

/?

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 1 of 27 PagelD #: 1025

I. Background
The factual background for the traffic stop and subsequent arrest is taken from the
Tennessee Court of Criminal Appeal’s opinion1. See State of Tennessee v. Raudenbush,
2017 WL 2443079.
On December 30, 2010, Sgt. Brian Millsaps of the Tellico Plains Police
Department was patrolling and “running” radar on Highway 68. Auxiliary
Officer April Shaffer was riding with him. Sgt. Millsaps testified that the
speed limit on Highway 68 was 45 miles per hour. At some point, as they
were driving toward Coker Creek, Sgt. Millsaps and Officer Shaffer met
Raudenbush’s vehicle which Sgt. Millsaps estimated to be travelling over the
speed limit. Sgt. Millsaps’ radar unit verified that the vehicle was travelling
57 miles per hour, which was 12 miles over the posted speed limit. Sgt.
Millsaps turned around, activated his blue lights, and got behind
Raudenbush’s vehicle to initiate a traffic stop. Raudenbush pulled over and
Sgt. Millsaps noticed that Raudenbush’s license plate read “Luke 4/18.” He
could not tell from which state the plate was registered. Sgt. Millsaps noted
that the stickers on the license plate were not real. He said that there were
also stickers on the plate that read “Basieia Ouranos.” The plate showed that
it was issued by the “Emgassyofheaven.org.” Sgt. Millsaps ran a check on
the license plate, and it came back as “not on file.”

Sgt. Millsaps walked up to the driver’s side of the vehicle and Officer Shaffer
walked up to the passenger side. Detective Travis Jones also arrived on the
scene as back-up and was sitting in his truck. Sgt. Millsaps explained to
Raudenbush why he had pulled him over and asked for his driver’s license,
insurance, and registration. Sgt. Millsaps described the driver’s license as
follows:
At the top, it’s got “driver’s license.” In the upper right-hand comer it has
“Kingdom of Heaven.” It has a photograph of Raudenbush. It has an ID
number, his sex, Baptism, issue date, and expiration date. It has his height,
weight, eye color, hair color, his name, George Joseph Raudenbush, III,
Embassy of Heaven Church. And then State of Oregon. H is signature at the
bottom.

1 This was Raudenbush’s second trial. The Tennessee Criminal Court of Appeals reversed and remanded the
case for a new trial because the trial court denied defendant his Sixth Amendment right to counsel by requiring him
to proceed pro se at trial. See State v. Raudenbush, 2013 WL 62372011.

2

/fr. W

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 2 of 27 PagelD #: 1026

Sgt. Millsaps testified that the driver’s license was not valid, and Raudenbush
told Sgt. Millsaps that he was not a resident of the State of Tennessee.
Raudenbush never presented Sgt. Millsaps with a valid driver’s license. Sgt.
Millsaps checked the status of Raudenbush’s driver’s license and learned that
it was suspended. He then obtained a certified copy of Raudenbush’s driving
history.
Sgt. Millsaps testified that Raudenbush also gave him a document that read
“vehicle title and registration record.” It indicated that it was issued by the
“Embassy of Heaven,” and it had an address from the State of Oregon on it.
Sgt. Millsaps testified that the registration was not valid in the State of
Tennessee. Raudenbush also provided a “vehicle certificate of title.” The
document had a notary seal from “Embassy of Heaven.” The document read
“Embassy of Heaven of the Kingdom of Heaven certifies that the vehicle
described below has been registered to this office and that the individual
stated below is the lawful steward.” There was also a registration card with
the same information.
Sgt. Millsaps testified that he informed Raudenbush that he would be under
arrest if he could not produce a valid driver’s license. When he asked if
Raudenbush had any form of a government-issued driver’s license,
Raudenbush replied “I am not a citizen of this state.” Sgt. Millsaps asked
Raudenbush to step out of the car. Raudenbush refused by rolling up the
window and locking the door. Sgt. Millsaps then yelled several times that
Raudenbush was under arrest. Raudenbush then put his car in drive and
turned the wheel. Sgt. Millsaps used his flashlight to knock the driver’s side
window out of the car. He testified that he did not hit Raudenbush with the
flashlight. Sgt. Millsaps attempted to open the vehicle door but Raudenbush
“accelerated onto Highway 68.” Sgt. Millsaps then took “evasive action” to
avoid being struck by Raudenbush’s car. Officer Shaffer testified that the
vehicle nearly hit her and Sgt. Millsaps. Det. Jones pulled out behind
Raudenbush, and Sgt. Millsaps and Officer Shaffer went back to their patrol
vehicle to pursue Raudenbush.
Both Sgt. Millsaps and Officer Shaffer testified they observed an oncoming
vehicle go off the road and into the grass to avoid hitting Raudenbush’s car.
Sgt. Millsaps stated it was not a high-speed chase and it reached a speed of
40-50 miles per hour. At one point, the officers tried to “box him in” but
Raudenbush struck Det. Jones’ truck before they could get “set up.” Sgt.
Millsaps testified that Raudenbush lost control of hi s vehicle at one point and
“slid all the way, sideways, in the road.” Raudenbush was able to keep going
and eventually turned onto Pond Ridge Road and into a driveway.
Raudenbush stopped the car, got out, and ran.

3

f)f/Z /f

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 3 of 27 PagelD #: 1027

Sgt. Millsaps got out of his car and chased Raudenbush on foot. He yelled
at Raudenbush to stop, but Raudenbush kept running. Sgt. Millsaps
eventually lost sight of Raudenbush. He later received information from
dispatch and went to a residence. Raudenbush was taken out of the residence,
arrested, and transported to jail.
Det. Travis Jones of the Monroe County Sheriffs Office testified that he
drove an unmarked. Black F-150 truck. His vehicle was equipped with blue
lights and sirens. On the night of December 30, 2010, he was on his way
home when he learned that Sgt. Millsaps had stopped a vehicle. He drove to
the scene in order to “back him up on the traffic stop” and activated his blue
lights.
Det. Jones was about to step out of his truck when he heard a loud “pop,” and
he saw Sgt. Millsaps “jump back.” Det. Jones then realized the sound was
the driver’s side window breaking. Raudenbush drove away and Det. Jones
pulled out behind him and activated his siren. Det. Jones testified that he
attempted to drive around Raudenbush to effect a “rolling road block,” but
he was unable to get in front of Raudenbush because Raudenbush drove into
Det. Jones’ lane and struck his truck as he was passing him. Det. Jones
testified that he later attempted to drive around Raudenbush a second time.
He stated that Raudenbush struck his vehicle a total of three times during the
pursuit. Det. Jones testified “There around the curve, come a van around the
curve, Raudenbush actually went in their lane and forced them off into the
emergency lane closer to grass.” Det. Jones testified that when Raudenbush
turned onto Pond Ridge Road, Det. Jones missed the turn, and Sgt. Millsaps
got behind Raudenbush and continued the chase. Det. Jones turned around
and drove to the residence where Raudenbush had parked his car and fled on
foot.
Joan Champion, testified that she lives on Pond Ridge Road in Coker Creek.
She has known Raudenbush for 6 or 7 years. On December 30, 2010, she
was asleep when Raudenbush came to her house and asked to use the phone.
She said that he seemed to be afraid and in a panic. Champion thought that
she saw blood “somewhere.” She thought it may have been on Raudenbush’s
hand.
Raudenbush testified that he did not believe he was speeding prior to being
pulled over by Sgt. Millsaps. He recognized Sgt. Millsaps because Sgt.
Millsaps was present when he had been pulled over “twice before.”
Raudenbush further testified that he presented his driver’s license to Sgt.
Millsaps. The license was issued by “KOH,” which stands for “Kingdom of
4

oP6

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 4 of 27 PagelD #: 1028

Heaven.” Raudenbush stated that KOH is an organization based out of
Oregon. Concerning KOH, Raudenbush testified “I did some research. I
called them. They referred me to the state department. I verified their
credentials, and that’s how I met them.” He believed his driver’s license was
valid. He had been pulled over in Ranger, North Carolina, but the officer
never told him the license was invalid. He said that he had also been pulled
over in Decatur, Tennessee and had no reason to believe his license was
invalid.
Raudenbush testified that after he handed Sgt. Millsaps the license, Sgt.
Millsaps asked for the registration card, so I handed him the registration. At
that point, he asked me for the insurance. When I went to go for the insurance
papers, he told me to exit the vehicle. Because it was cold that night, 1 rolled
up my window, and when I went to open the door, I heard a thump, and I
couldn’t open the door. When I looked up, I heard another - it wasn’t a
thump, but it was kind of like a bang, like a noise on the window, and then
that - the first time, I didn’t realize it then, but his flashlight had hit the
window and bounced off. The second time, it broke the window and hit me
in the head. After the second time, when the flashlight came through, I put
my hand up to protect my face. When I did that, I sustained a laceration to
my hand, to my finger, and there was blood everywhere. At that point, I
started panicking. I didn’t know what was going on. And then when I looked
over to the officer, he was drawing his gun. Raudenbush did not recall Sgt.
Millsaps saying anything at that point. He believed Sgt. Millsaps was going
to shoot him.
Raudenbush testified that he was scared and, without thinking, put the car
into drive and “went forward” for about 50- 100 feet before he realized he
had to turn back on the road.” His only concern was to “get out of that
situation.” He denied striking any of the officers’ vehicles and he did not
recall seeing any other vehicles on the road that evening. He went to the
house where he was staying, but it didn’t have a phone, so he went to his
neighbor’s house. He told Champion that he needed to call the “state patrol.”
He told the 911 operator that there was an attempt on his life by a police
officer and he needed state patrol. He did not want anybody from Tellico to
come out or from the Monroe County Sheriffs Office. Raudenbush testified
that his injuries consisted of glass cuts behind his ear, and he has a scar on
his head “from where the flashlight hit.” He said his hand was also cut from
the glass, and his blood pressure was “really high.”

*//■

5

s>t

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 5 of 27 PagelD#:1029

On cross-examination, Raudenbush admitted that he obtained his KOH
license after his government-issued license was suspended for failure to pay
citations. He further admitted that he got the KOH license because “an
employee of the state refused to register their church vehicles.”
Raudenbush was ultimately taken into custody by a Monroe County deputy without
incident and transported to the Monroe County Jail. Sgt. Millsaps had no further dealings
relating to Raudenbush once he was taken into custody by the Monroe County deputy on
the scene and transported to the Monroe County Jail.
Raudenbush was transported to Sweetwater Hospital Emergency room and was
triaged at 1:22 a.m. on December 31, 2010. He was accompanied by Officer Larry Bivens
and was treated for a laceration on his left index finger. Raudenbush was taken to radiology
where an x-ray was taken of his left hand to check for a fracture. Upon discharge, he was
prescribed 500 mg of Keflex. Raudenbush refused to sign his discharge summary, so
Officer Bivens signed the form. Upon his return, Raudenbush was formally booked into
the jail.
As part of the booking process, Raudenbush was screened by the medical staff and
it was noted that he did have a laceration on his finger. Raudenbush refused to sign the
fonn and also refused to consent to treatment while incarcerated and would not authorize
the Sheriffs Office to release his medical information to other treating facilities. When
Raudenbush was called to medical for his intake questionnaire, the medical staff attempted
to follow up on his emergency room visit and give him his medication as prescribed. He
allowed the medical staff to clean his laceration and put on a new band-aid. But, he refused
to take the medication that was prescribed to him by the Emergency Room, stating that he
6
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 6 of 27 PagelD #: 1030

was “not taking any meds” because he didn’t know if he could have “a reaction.”
Raudenbush also refused to sign the Refusal of Medical Treatment and Release of
Responsibility form.
The next day, Raudenbush signed the Inmate Medical Form, but he still refused to
sign the Medical Staff Screening form when jail staff attempted to go through it again.
While Raudenbush was incarcerated, records indicate that when he made a sick call, he
was promptly seen for his ailments and offered some sort of treatment.
A jury convicted Raudenbush of speeding, reckless endangerment, simple assault,
evading arrest, evading arrest with risk of death, violation of Financial Responsibility, and
driving on a suspended license. He was sentenced to 4 years imprisonment to be served
on supervised probation.2 The Tennessee Criminal Court of Appeals affirmed the jury
verdict on September 20, 2016. An application for permission to appeal to the Tennessee
Supreme Court was denied on October 3, 2017.
II. Standard of Review
Summary judgment under Rule 56 of the Federal Rules of Civil Procedure is proper
“if the movant shows that there is no genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). The moving party bears
the burden of establishing that no genuine issues of material fact exist. Celotex Corp. v.
Cattrett, All U.S. 317, 330 n. 2 (1986); Moore v. Philip Morris Co., Inc., 8 F.3d 335, 339
(6th Cir. 1993). All facts and inferences to be drawn therefrom must be viewed in the light

2 After his first conviction, Raudenbush was sentenced to four years imprisonment in the Tennessee
Department of Corrections. He remained in TDOC custody until his second trial.
7

/)/?/>■

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 7 of 27 PagelD #: 1031

most favorable to the nonmoving party. Matsushita Elec. Indus. Co. Ltd v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986); Burchett v. Keifer, 301 F.3d 937, 942 (6th Cir. 2002).
Once the moving party presents evidence sufficient to support a motion under Rule
56, the nonmoving party is not entitled to a trial merely on the basis of allegations. Celotex,
All U.S. at 317. To establish a genuine issue as to the existence of a particular element,
the nonmoving party must point to evidence in the record upon which a reasonable finder
of fact could find in its favor. Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986).
The issue must also be material; that is, it must involve facts that might affect the outcome
of the suit under the governing law. Id.
The court’s function at the point of summary judgment is limited to determining
whether sufficient evidence has been presented to make the issue of fact a proper question
for the factfinder. Id. at 250. The court does not weigh the evidence or determine the truth
of the matter. Id. at 249. Nor does the court search the record “to establish that it is bereft
of a genuine issue of fact.” Street v. J.C. Bradford & Co., 886 F.2d 1472, 1479 (6th Cir.
1989). Thus, “the inquiry performed is the threshold inquiry of determining whether there
is a need for a trial - whether, in other words, there are any genuine factual issues that
properly can be resolved only by a finder of fact because they may reasonably be resolved
in favor of either party.” Anderson, All U.S. at 250.
ITT. Excessive Force
Raudenbush claims that Sgt. Millsaps used excessive force during the traffic stop.
There is a constitutional right to be free from excessive force during an arrest.
Graham v. Connor, 490 U.S. 386 (1989). Claims for excessive force in the course of an
8
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 8 of 27 PagelD #: 1032

arrest, stop, or seizure are properly analyzed under the Fourth Amendment’s “objective
reasonableness standard.” Id. at 388. In assessing an excessive force claim, courts must
construe all facts in the record in the light most favorable to the plaintiff. Schreiber v. Moe,
596 F.3d 323, 332 (6th Cir. 2010). After doing so, the question of whether an officer’s
action was objectively unreasonable “is a pure question of law.” Id. In order to determine
whether the force used during an arrest or seizure was objectively reasonable, the court
must balance “the nature and quality of the intrusion on the individual’s Fourth
Amendment interests against the countervailing governmental interests at stake.” Graham,
490 U.S. at 396. The court must evaluate the facts and circumstances including “the
severity of the crime at issue, whether the suspect poses an immediate threat to the safety
of the officers or others, and whether he is actively resisting arrest or attempting to evade
arrest by flight.” Id. The reasonableness must be judged from the point of view of the
officer on the scene at the time the force was used. Id.
The reasonableness of an officer’s use of force is judged from the perspective of a
reasonable officer on the scene, rather than the 20/20 vision of hindsight. Id. A calculus
of reasonableness must embody allowance for the fact that police officers are often forced
to make split second judgment in circumstances that are tense, uncertain, and rapidly
evolving about the amount of force that is necessary in a particular situation. Id. The right
to make an arrest or investigatory stop necessarily carries with it the right to use some
degree of physical coercion or threat thereof to effect it. See Terry v. Ohio, 392 U.S. 1,2227 (1968).

9
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 9 of 27 PagelD #: 1033

A. Set. Millsaps
Raudenbush alleges that Sgt. Millsaps used excessive force against him by breaking
out the window of his car. He further alleges that Sgt. Millsaps “repeatedly struck the
plaintiff in his face and head, as plaintiff sat in the vehicle.”
The record in this case establishes that Sgt. Millsaps stopped Raudenbush for
speeding. While speeding is not a severe crime and was the reason Sgt. Millsaps sought to
stop Raudenbush, resisting, fleeing and eluding are felonies under Tennessee law. After
Sgt. Millsaps ordered Raudenbush to step out of the car, Raudenbush rolled up the window
and locked the doors. Raudenbush does not contest that he failed to comply with Sgt.
Millsaps’ orders to exit the car.

Instead of complying with Sgt. Millsaps’ lawful

commands, Raudenbush accelerated, almost hitting Sgt. Millsaps and Officer Shaffer. Sgt.
Millsaps reasonably believed that Raudenbush intended to flee the scene, thereby
endangering the officers and other motorists. Sgt. Millsaps then used his flashlight to break
the window. Taking all of these facts into account, Sgt. Millsaps’ actions cannot be found
to be objectively unreasonable under the circumstances. Raudenbush ignored Sgt. Millsaps
lawful commands to exit the vehicle; he was actively resisting arrest; and attempting to
evade arrest by flight. There is no evidence on which a jury could reasonably find that the
force used was excessive.
While Raudenbush asserts that Sgt. Millsaps repeatedly struck him in the face and
head, there is no evidence to support that claim. There are no notations of a head injury on
the jail intake forms, nor on the emergency room records from Sweetwater Hospital.
Moreover, Joan Champion only recalled seeing blood somewhere, maybe on Raudenbush’s
10

/)//> ££

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 10 of 27 PagelD #:

1034

hand. She certainly would have noticed if Raudenbush had been beaten about the face and
head as he alleges.
Moreover, Raudenbush5s criminal convictions arising out of the stop affirmatively
bar his excessive force claim. See Heck v. Humphrey, 512 U.S. 477, 487 (1994) (If § 1983
action would challenge the validity of state criminal conviction, the action is barred unless
the state court conviction has been overturned or expunged). The Sixth Circuit has ruled
that under Tennessee law, an officer’s excessive use of force is a defense to a charge of
resisting or evading arrest; therefore, a guilty plea or conviction for resisting/evading arrest
necessarily includes a finding that the officer did not use excessive force. Roberts v.
Anderson, 213 Fed. Appx. 420, 427 (6th Cir. 2007) (referring to Tenn. Code Ann. § 39-16602). Here, Raudenbush was convicted of evading arrest, reckless endangerment, and
assault. The criminal convictions have not been invalidated and are binding on him.
Therefore, the court finds that under Heck, Raudenbush is barred from maintaining an
excessive force claim against Sgt. Millsaps. Because the court concludes that there was no
constitutional violation, it need not reach the issue of whether Sgt. Millsaps would be
entitled to qualified immunity.
B. Pet. Jones
Raudenbush claims that Det. Jones is liable under the Fourth Amendment for failing
to prevent or stop the use of force by Sgt. Millsaps against him. An officer can be liable
for failing to prevent the use of excessive force when (1) the officer observed or had reason
to know that excessive force would be or was being used, and (2) the officer had both the

11
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 11 of 27 PagelD #:

1035

opportunity and the means to prevent the harm from occurring. Turner v. Scott, 119 F.3d
425, 429 (6th Cir. 1997).
First, the court has found that Sgt. Millsaps did not use excessive force against
Raudenbush. Second, assuming that Raudenbush could establish a claim of excessive
force, Raudenbush has failed to present evidence that Det. Jones would have been able to
both anticipate Sgt. Millsaps breaking the vehicle window and then implement preventative
measures. Det. Jones testified that he was about to step out of his truck when he heard a
loud “pop” and saw Sgt. Millsaps “jump back.”

Raudenbush then drove away.

Raudenbush offers nothing to contradict Det. Jones’ testimony. Accordingly, Raudenbush
cannot maintain a claim against Det. Jones for failing to prevent the use of excessive force.
C. Officer Bivens
Raudenbush has alleged no facts to show that Officer Bivens was at the scene of his
arrest; nor does he plead any facts to establish that Officer Bivens failed to intervene on his
behalf during the initial traffic stop.
D. Town of Tellico Plains
Raudenbush’s Amended Complaint also includes a claim of municipal liability
under § 1983 pursuant to Monel v. Dep’t ofSoc. Servs., 436 U.S. 658 (1978). To succeed
on a municipal liability claim, a plaintiff must establish that his constitutional rights were
violated and that a policy or custom of the municipality was the “moving force” behind the
deprivation of the plaintiffs rights. Miller v. Sanilac Cnty, 606 F.3d 240, 254-55 (6th Cir.
2010). Here, Raudenbush claims that the deprivation of constitutional rights stem from the
City of Tellico Plains’ policies regarding training and the use of force. In order to succeed
12
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 12 of 27 PagelD #:

1036

on a failure to train claim, a plaintiff must show that the failure to train amounts to
deliberate indifference “to the rights of the person with whom the police come into
contact.” Id. at 255. Because Raudenbush failed to establish a constitutional violation for
excessive force, the Town of Tellico Plains cannot be held liable under § 1983. See Smith
v. Thornburg, 136 F.3d 1070, 1087, n. 12 (6th Cir. 1998) (declining to address issue of
municipal liability because no constitutional violation occurred).
E. Monroe County
Raudenbush also alleges a municipal liability claim against Monroe County for
excessive force used during the initial traffic stop by Sgt. Millsaps.

The Amended

Complaint contains no factual allegations to establish an excessive force claim against any
Monroe County officer.

Sgt. Millsaps was employed by the Tellico Plains Police

Department. Because Raudenbush fails to plead facts to support an excessive force claim
against any officer of Monroe County, the County cannot be held liable under § 1983.
IV. Unlawful Arrest
Raudenbush next claims that Sgt. Millsaps is liable to him for an alleged unlawful
arrest. Raudenbush was arrested and found guilty of speeding, reckless endangerment,
simple assault, evading arrest, evading arrest with risk of death, violation of Financial
Responsibility, and driving on a suspended license.

Therefore, as a matter of law,

Raudenbush is foreclosed from raising the issue of the lawfulness of his arrest here.
A state court judgment must be given the same preclusive effect in federal court that
it would be given in the courts of the rendering state. This principle applies to civil rights
actions under § 1983 with respect to issues actually litigated (collateral estoppel or issue
13

^^

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 13 of 27 PagelD #:

1037

preclusion) and issues which could have been but were not litigated in the state court
proceeding (res judicata or claim preclusion). Walker v. Schaeffer, 854 F.2d 138, 142 (6th
Cir. 1988). However, this preclusive effect will not be given to a state court judgment if
the party against whom the judgment is asserted did not have a “full and fair opportunity
to litigate the claim or issue.” Fellowship of Christ Church v. Thorburn, 758 F.2d 1140,
1144 (6th Cir. 1985).
The court looks to Tennessee law on the doctrine of collateral estoppel to determine
the preclusive effect ofthe state court judgment. Stemlerv. City ofFlorence, 126F.3d856,
871 (6th Cir. 1997). Pursuant to Tennessee law, once an issue has been actually or
necessarily determined by a court of competent jurisdiction, the doctrine of collateral
estoppel renders that determination conclusive on the parties and their privies in subsequent
litigation, even when the claims or causes of action are different. State v. Scarbrough, 181
S.W.3d 650, 654 (Tenn. 2005). The party seeking to bar an issue by collateral estoppel has
the burden of proof. Id. at 655.
Whether probable cause existed for Raudenbush’s arrest was at issue in the state
court criminal proceedings for which there are judgments of conviction. Raudenbush was
represented by counsel at the state court proceedings. There is nothing in the record to
indicate that Raudenbush and his counsel did not have a full and fair opportunity to
challenge the probable cause determination made by the jury to the charges for which
Raudenbush was convicted. Therefore, the judgments of conviction collaterally estop him
from asserting that he was arrested without probable cause. Cox v. Reagan, 2009 WL
874013 at 3 (E.D.Tenn. Mar. 30, 2009).
14
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 14 of 27 PagelD#:

1038

Defensive collateral estoppel is proper under Tennessee law where the plaintiff is
convicted of the criminal charge but then demands damages in civil litigation concerning
precisely the same incident by asserting that he did not commit the criminal act.
Cunningham v. Sisk, 2003 WL 23471541 at *8 (E.D.Tenn. Dec. 4, 2003). Application of
the doctrine of collateral estoppel prevents the plaintiff from repudiating his conviction and
attacking the validity of his state-court judgment of conviction. Id.
A further reason to grant summary judgment on Raudenbush’s unlawful arrest claim
is that his conviction on the state law charges provides the defendants with “a complete
defense to this cause of action brought under § 1983.” “Where police officers have made
an arrest, the resulting conviction is a defense to a § 1983 action claiming the arrest was
made without probable cause.” Id.
V. Official/Individual Capacity
In his Amended Complaint, Raudenbush fails to identify in what capacity he has
sued the individual officers, Sgt. Millsaps, Officer Bivens, and Det. Jones. The Amended
Complaint does not indicate whether these officers are being sued in their individual
capacity, official capacity or both.

Because the court concludes that there was no

constitutional violation, it need not reach the issue of whether the officers were sued in
their individual or official capacity.
VI. Civil Conspiracy
Raudenbush alleges Sgt. Millsaps is liable to him for an alleged violation of 42
U.S.C. §§ 1985 and 1986.

15
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 15 of 27 PagelD #:

1039

To state a claim under § 1985, a plaintiff must allege: “(1) a conspiracy; (2) for the
purpose of depriving, either directly or indirectly, any person or class of persons of the
equal protection of the laws, or of equal privileges or immunities of the laws; (3) an act in
furtherance of the conspiracy; (4) whereby a person is either injured in his person or
property or deprived of any right or privilege of a citizen of the United States.” United
Broth. Of Carpenters and Joiners ofAmer. v. Scott, 463 U.S. 825, 828-29 (1983). The acts
which are alleged to have deprived the plaintiff of equal protection must be the result of
class-based discrimination. See Newell v. Brown, 981 F.2d 880, 886 (6th Cir. 1992). The
critical issue is whether Raudenbush can establish that Sgt. Millsaps’ actions were
motivated by “some racial, or perhaps otherwise class-based, invidiously discriminatory
animus.” Griffin v. Breckenridge, 403 U.S. 88 (1971). Additionally, conspiracy claims
must be pled with some degree of specificity and “vague and conclusory allegations
unsupported by material facts will not be sufficient to state such a claim.” Gutierrez v.
Lynch, 826 F.2d 1534, 1538-39 (6th Cir. 1987).
Section 1986 provides a cause of action against a person who neglects to prevent a
violation of § 1985. Without a violation of § 1985, there can be no violation of § 1986.
German v. Illeen, 495 F.Supp. 822, 829 (E.D.Mich. 1980). Where a plaintiff has no § 1985
claim he also has no §1986 claim. Haverstick Enter. Inc. v. Fin. Federal Credit, Inc., 803
F.Supp. 1251, 1260 (E.D.Mich. 1992).
In this case, Raudenbush has not adequately pleaded a conspiracy. Raudenbush has
pleaded no facts to establish the existence of a conspiracy nor did he allege any racial or
class-based discriminatory animus. In fact, the word “conspiracy” only appears once in
16

/fa

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 16 of 27 PagelD#:

1040

the Amended Complaint. The Amended Complaint states that “the Defendants violated
Plaintiffs civil rights as follows . . . (d) conspired together to violate one or more of
plaintiffs civil rights.” Such a conclusory statement, without factual support, is not
adequate to state a cause of action. See Jaco v. Bloechle, 739 F.2d 239, 245 (6th Cir. 1984)
(dismissing conspiracy claim where the complaint merely alleged broad conclusory
language void of the factual allegations necessary to support a conspiracy theory). Thus,
Raudenbush cannot maintain a claim under § 1985.
Because Raudenbush’s § 1986 claim is dependent upon the existence of a valid §
1985 cause of action, it also fails as a matter of law.
VII. Fourteenth Amendment
Raudenbush alleges Sgt. Millsaps is liable to him for an alleged violation of the
Fourteenth Amendment.
The Due Process Clause of the Fourteenth Amendment states that no state shall
“deprive any person of life, liberty, or property without due process of law.” U.S. Const.
amend. XIV, § 1. Raudenbush does not specify whether he is asserting a procedural or
substantive due process claim . He alleges only a claim for violation of his civil rights “as
protected by the 4th and 14th Amendments to the U.S. Constitution and laws of the United
States under 42 U.S.C. §§ 1983, 1985, 1986 and for other causes of action as alleged
herein.” To the extent that Raudenbush is attempting to assert a substantive due process
claim for Sgt. Millsaps alleged use of excessive force, that argument fails as it is well settled
that such claims are to be analyzed under the Fourth Amendment’s “objective
reasonableness” standard. Graham, 490 U.S. at 388. As further explained in Graham:
17
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 17 of 27 PagelD #:

1041

all claims that law enforcement officers have used excessive force - deadly
or not - in the course of an arrest, investigatory stop, or other “seizure” of a
free citizen should be analyzed under the Fourth Amendment and its
“reasonableness” standard, rather than under a “substantive due process”
approach. Because the Fourth Amendment provides an explicit textual
source of constitutional protection against this sort of physically intrusive
governmental conduct, that Amendment, not the more generalized notion of
“substantive due process,” must be the guide for analyzing these claims.
Id. at 395.

Graham requires that if a constitutional claim is covered by a specific

constitutional provision, such as the Fourth or Eighth Amendment, the claim must be
analyzed under the standard appropriate to that specific provision, not under the rubric of
substantive due process. Henderson v. Reyda, 192 Fed.Appx. 392, 396 (6th Cir. 2006).
Raudenbush’s excessive force claim falls squarely under the Fourth Amendment.
Therefore, he cannot assert a substantive due process claim for excessive force under the
Fourteenth Amendment.
VIII. First Amendment Retaliation
Raudenbush alleges violation of his constitutional rights asserting that he was
arrested or seized in retaliation for exercising his First Amendment right to complain about
government officials.
Generally, there can be no doubt that the freedom to express disagreement with state
action, without fear of reprisal based on the expression, is among the protections provided
by the First Amendment. Barnes v. Wright, 449 F.3d 709, 717 (6th Cir. 2006). As the
Supreme Court has explained, the “freedom of individuals verbally to oppose or challenge
police action without thereby risking arrest is one of the principle characteristics by which
we distinguish a free nation from a police state.” City of Houston v. Hill, 482 U.S. 451,
18
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 18 of 27 PagelD #:
1042

462-63 (1987).

In order for a plaintiff to prevail in a § 1983 claim for retaliatory

prosecution, he must first prove a lack of probable cause. Hartman v. Moore, 547 U.S. 250
(2006).
Here, Officer Bivens and Det. Jones did not participate in the initial stop of
Raudenbush. They were merely providing backup to Sgt. Millsaps. Sgt. Millsaps had
probable cause to arrest Raudenbush for the criminal charges in this case.

And,

Raudenbush was convicted of those charges after a jury trial. Therefore, Raudenbush’s
First Amendment retaliation claim against Sgt. Millsaps fails as a matter of law.
In his response, Raudenbush attempts to paint a picture of how the Monroe County
Sheriffs Office is unlawful and often retaliates against him. However, nothing contained
in the response refers to the issues in this case - the traffic stop, arrest, and incarceration
of Raudenbush on December 30, 2010, which the court has found to be lawful.
IX. Denial of Medical Care
Raudenbush alleges that defendants denied him medical care in violation of his civil
rights. He states he had serious medical needs “severe headaches coughing up blood and
loss of feeling in his lower extremities, hand and arms.” But the record does not support
these allegations.
The Eighth Amendment’s prohibition on cruel and unusual punishment generally
provides the basis to assert a § 1983 claim of deliberate indifference to serious medical
needs, but where that claim is asserted on behalf of a pretrial detainee, the Due Process
Clause of the Fourteenth Amendment is the proper starting point. Phillips v. Roane Cnty,
534 F.3d 531, 539 (6th Cir. 2008). There are two parts to the claim, one objective, one
19
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 19 of 27 PagelD#:

1043

subjective. For the objective component, the detainee “must demonstrate the existence of
a sufficiently serious medical need.” Spears v. Ruth, 589 F.3d 249, 254 (6th Cir. 2009). A
medical need is objectively serious if it is “one that has been diagnosed by a physician as
mandating treatment or one that is so obvious that even a lay person would easily recognize
the necessity for a doctor’s attention. Blackmore v. Kalamazoo Cnty, 390 F.3d 890, 897
(6th Cir. 2004).
For the subjective component, the detainee “must demonstrate that the defendant
possessed a sufficiently culpable state of mind in denying medical care.” Id. A defendant
has a sufficiently culpable state of mind if the defendant “knows of and disregards an
excessive risk to inmate health or safety.” Farmer v. Brennan, 511 U.S. 825, 837 (1994).
This means that “the official must both be aware of facts from which the inference could
be drawn that a substantial risk of serious harm exists, and he must also dra w the inference.”
Id. A plaintiff need not show that the defendant acted with the very purpose of causing
harm, but must show “something greater than negligence or malpractice.” Id.

The

standard, then, has generally been equated with one of “recklessness.” Farmer, 511 U.S.
at 836. The subjecti ve component of a deliberate indifference claim must be addressed for
each officer individually. Phillips, 534 F.3d at 542. The evidence must show that the
specific individual was aware of facts from which he or she could infer a substantial risk
of serious harm.
A. Pet. Jones
Raudenbush states in his Amended Complaint that he believes that Det. Jones is the
officer who transported him to Sweetwater Hospital. In fact, the medical records show that
20

3S

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 20 of 27 PagelD#:

1044

it was Officer Bivens who accompanied Raudenbush to the hospital. Raudenbush was
diagnosed with a cut to his left index finger and was prescribed Keflex. There are no facts
in the record to establish that Det. Jones denied Raudenbush medical treatment.
Accordingly, Raudenbush cannot maintain this claim against Det. Jones.
B. Officer Bivens
There are no facts in the record to establish that Officer Bivens denied Raudenbush
medical care. As stated above, Officer Bivens accompanied Raudenbush to Sweetwater
Emergency Room where Raudenbush received medical care for a laceration to his finger,
including an x-ray to his hand. The record also shows that Raudenbush received treatment
for a sore throat around January 30, 2011 while at the Monroe County Jail. The medicine
log confirms that Raudenbush was prescribed a Zpak at that time. Raudenbush also alleges
that he requested to see a doctor for migraine headaches, but his medical file does not
contain a complaint regarding a headache. There is nothing in the record to establish a
claim of denial of medical care to Raudenbush by Officer Bivens.
C. Monroe County
The medical records from the jail show that Raudenbush was treated by medical
staff when a sick call was placed, despite refusing to consent to treatment. No member of
the jail staff denied him medical care. If no constitutional violation by the any defendant
is established, the municipal defendant cannot be held liable under § 1983. Having found
no constitutional violation by any individual defendant with regard to deliberate
indifference to serious medical needs, the court finds that Monroe County cannot be liable,
as a matter of law, for this claim.
21
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 21 of 27 PagelD#:

1045

X. Jail Conditions
Raudenbush alleges he was “denied a shower, running water to wash with,
soap/toothpaste or toothbrush, a working toilet, food, a bed and proper hygiene for medical
care” during his first 72 hours at the jail.

Raudenbush further alleges that while

incarcerated in Monroe County, he was subjected to extreme overcrowding and was
“denied the use of the telephone in the cell he was placed in.” Raudenbush also alleges
that he “was forced to sleep on a cold, bare, cement floor for 28 days developing back pain
and causing his left leg to go numb.” Raudenbush further alleges that the temperature in
his cell was intentionally lowered to 45-50 degrees.
The Fourteenth Amendment’s due process clause protects pretrial detainees from
cruel and unusual punishments, and the Eighth Amendment’s cruel and unusual
punishments clause protects those convicted of crimes. Bell v. Wolfish, 441 U.S. 520, 535
n. 16 (1979). An act or practice that violates the Eighth Amendment also violates the due
process rights of pretrial detainees. Martin v. Tyson, 845 F.2d 1451, 1457 (7th Cir. 1988).
In order to state a claim that prison conditions violate the Eighth Amendment, the
plaintiff must plead facts showing that he has been subjected to deprivations so serious that
he was deprived of the “minimal civilized measure of life’s necessities” and that jail
officials acted wantonly, with deliberate indifference to his serious needs. Richmond v.
Settles, 450 Fed.Appx. 448, 454-55 (6th Cir. 2011). The plaintiff must allege “extreme
deprivations” to state an Eighth Amendment conditions of confinement claim. Allegations
of temporary inconveniences are insufficient to state a claim. Dellis v. Corr. Corp. ofAm.
257 F.3d 508, 511 (6th Cir. 2001); see also Agramonte v. Shartle, 491 Fed.Appx. 557, 559
22
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 22 of 27 PagelD #:

1046

(6th Cir. 2012) (inmates cannot expect the amenities, conveniences and services of a good
hotel).
Raudenbush’s complaint shows that most of the deprivations he alleges he
experienced were no more than temporary inconveniences. He first alleges that he was
“denied a shower, running water to wash with, soap/toothpaste or toothbrush, a working
toilet, food, a bed and proper hygiene for medical care” during his first 72 hours in the jail.
In a case with similar allegations, the Sixth Circuit found there was no violation of
constitutional rights when an inmate was denied “toilet paper, soap, toothpaste, toothbrush,
running water or the ability to shower for six days.” Richmond, 450 Fed.Appx. at 455. In
rejecting plaintiffs claim, the Sixth Circuit concluded that the deprivation of a shower and
other personal hygiene items for a “brief span of time . . . i.e., only six days” is not
actionable conduct. Id. As to Raudenbush’s claim that he was denied a bed, the record
shows that he was given a mattress, blanket, and pillow on January 1, 2011, after he
completed intake. On January 7, when Raudenbush complained about the thinness of his
mattress, officers were instructed to find him a thicker mat. Accordingly, the court finds
this claim without merit.
Raudenbush next alleges that he was “forced to sleep on a cold, bare, cement floor
for 28 days, developing back pain and problems and causing his left leg to go numb.”
Again, the record shows that Raudenbush signed for and received a mattress, sheet,
pillowcase, pillow and blanket on January 1. When he requested medical attention on
January 7 to complain that his mat was thinner than others, the nurse instructed the officers
to trade Raudenbush’s mat for a thicker one. There is nothing in the record to substantiate
23

3?

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 23 of 27 PagelD #:

1047

Raudenbush’s allegation that he was forced to sleep on the floor for 28 days. Accordingly,
the court finds this claim without merit.
Raudenbush also alleges that he was subjected to “extreme overcrowding” while
incarcerated in Monroe County. Specifically, Raudenbush claims that he was placed in a
cell with “44 other men.” But there is no evidence to support his claim. Raudenbush does
cite to a report that shows that the jail was overcrowded, but jail records for 2011 covering
the time he was in detention, show an overcrowding of only 21 individuals. That evidence
does not support Raudenbush’s claim. While crowded conditions can be restrictive and
even harsh, they do not violate the Eighth Amendment unless they deprive the inmate of
the minimal civilized measure of life’s necessities. Rhodes v. Chapman, 452 U.S. 337, 347
(1981).

Although Raudenbush may have been subjected to uncomfortable living

conditions, he does allege with any specificity that he was subjected to conditions that
could reasonably be described as an unnecessary and wanton infliction of pain.
Without question, prison officials must ensure that inmates received adequate food,
clothing, shelter, and medical care, and must take reasonable measures to guarantee the
safety of inmates. Farmer, 511 U.S. at 832. Harsh and uncomfortable prison conditions
do not automatically create an Eighth Amendment violation.

Rather “extreme

deprivations” must be alleged in order to support a prison-overcrowding claim.
Agramonte, 491 Fed.Appx. at 560.
Here, Raudenbush has failed to allege that the conditions of his confinement were
sufficiently onerous to state a claim under the Eighth Amendment.

Outside of his

allegations that he was denied food and personal hygiene items during his first 72 hours in
24

A//.

Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 24 of 27 PagelD #:

1048

the jail, he makes no allegation that he was denied food or sanitation during the remainder
of his detention . Although he may have been inconveniehced by the increased population,
overcrowding is not, in itself, a constitutional violation, and he has not alleged that the
allegedly overcrowded conditions resulted in an unconstitutional denial of such basic needs
as food, shelter, or sanitation. Accordingly, the court finds this claim without merit.
Next, Raudenbush alleges that his incoming mail was discarded or returned to
sender and his outgoing mail was discarded and not delivered. The Supreme Court has
recognized that receiving mail is a First Amendment right. Jones v. Caruso, 569 F.3d 258,
167 (6th Cir. 2009). However, Raudenbush has offered no facts to establish that the Monroe
County Jail failed to deliver his mail. Accordingly, the court finds this claim without merit.
Raudenbush also alleges that the temperature in his cell was “intentionally lowered
to 45-50 degrees all night and the next day.” However, Monroe County established that
there is no thermostat in any cell where Raudenbush was housed during his detention, and
while there are multiple heating/cooling units in the jail, the cells cannot be made cooler
than 65 degrees. Accordingly, the court finds this claim without merit.
Lastly, Raudenbush alleges that he was “denied the use of the telephone in the cell
he was placed in” and was told by a jailer that he was ordered to not allow him to use the
phones. The Sixth Circuit has held that persons incarcerated in penal institutions retain
their First Amendment rights to communicate with family and friends. Washington v.
Reno, 35 F.3d 1093, 1100 (1994). Nevertheless, an inmate has no right to unlimited
telephone use. Instead, a prisoner’s right to telephone access is subject to “rational
limitations in the face of legitimate security interests of the penal institution.” Id.
25
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 25 of 27 PagelD #:
1049

Apart from his conclusory allegation that he was denied use of a telephone during
his detention, Raudenbush fails to provide any evidence to support his allegation. Instead,
the record show that he was allowed his one phone call when he was booked into the jail,
which he used to call Daniel Morgan. Accordingly, the court finds this claim without merit.
XI. State Law Claims
Raudenbush also alleges claims under Tennessee state law based on negligence,
false

arrest/imprisonment,

malicious

prosecution,

common

law

conspiracy,

intentional/negligent infliction of emotional distress, assault and battery. The court has
supplemental jurisdiction over these claims through 28 U.S.C. § 1367. A court may decline
to exercise supplemental jurisdiction if it has dismissed all claims over which it has original
jurisdiction.

28 U.S.C. § 1367(c)(3).

The only claims that the court has original

jurisdiction over are Raudenbush’s § 1983 claims. Because the court has dismissed all §
1983 claims, it will decline to exercise supplemental jurisdiction over the state claims.
Accordingly, Raudenbush’s state law claims are dismissed without prejudice. See Fed. R.
Civ. P. 41(b).
XII. Motion to Strike Sur-Replv
Defendants move to strike Raudenbush’s sur-reply filed in opposition to the motions
for summary judgment [R. 130], The motion to strike is GRANTED.
Local Rule 7.1(d) governs the filing of supplemental briefs. The rule states:
No additional briefs, affidavits, or other papers in support of or in opposition
to a motion shall be filed without prior approval of the court, except that a
party may file a supplemental brief of no more than 5 pages to call to the
court’s attention developments occurring after a party’s final brief is filed.
26
Case 3:ll-cv-Q0625-PLR-DCP Document 133 Filed 03/29/19 Page 26 of 27 PagelD#:

1050

First, Raudenbush did not seek court approval prior to filing his sur-reply. Second,
the sur-reply exceeds 5 pages, and merely reargues Raudenbush’s previous arguments
against summary judgment. Third, the sur-reply contains no new developments in the case.
Accordingly, the court finds the sur-rely should be stricken from the record for failure to
comply with Local Rule 7.1(d).
Conclusion
Finding no merit to Raudenbush’s federal claims, defendants’ motions for summary
judgment [R. 106, 110] are GRANTED, and his claims brought pursuant to 42 U.S.C. §
1983 are DISMISSED, with prejudice.

Raudenbush’s state law claims will be

DISMISSED, without prejudice.
Order to follow.

ED STATES DISTRICT JUDGE

27
Case 3:ll-cv-00625-PLR-DCP Document 133 Filed 03/29/19 Page 27 of 27 PagelD#:

1051

IN THE UNITED STATES DISTRICT COURT AT KNOXVILLE TENNESSEE
February 27, 2019
Case No. 3:ll-CV-625
RAUDENBUSH v. MONROE COUNTY

AFFIDAVITS AND SUPPORTING EVIDENCE
IN SUPPORT OF PLAINTIFFS ANSWER TO DEFENDANTS MOTIONS FOR SUMMARY JUDGMENT

AFFIDAVITS
!)•

Affidavit Danial Morgan 7-10-2009 (corrupt officials Millsap & Presley).

2).

Affidavit Scott Morgan 2-25-2015 (witness to jury tampering).

3).

Affidavit Scott Morgan 3-12-2018 (millsap/jury/drugs/black groups).

4).

Affidavit Danial Morgan 2-19-2019 (bivens/threats/conspiracy).

5).

Affidavit Danial Morgan 5-11-2018 (Jones/trial/escort condition/conspiracy).

6a).

Affidavit Gary Church 1-16-2007 (mcminn clerks office/conspiracy).

6b).

Affidavit Gary Church 2-1-2011 (Affidavit and 12 picturesl986 ford escort).

7).

Affidavit George Raudenbush 1-16-2007 (mcminn clerks office/conspiracy).

8).

Affidavit George Raudenbush 5-31-2018 (bivens/clerks//conspiracy/pope/trailer/background).

9).

Affidavit George Raudenbush 9-17-2014 (unconstitutional trial).

10).

Affidavit Grover Cowart 2-19-2019 (model inmate/conspiracy/injury).

11).

Affidavit James Simac 5-17-2018 (corruption/drugs/conspiracy).

12).

Affidavit George Raudenbush 1-2-2013 (tdoc diagnosis/denial of medical treatment).

13).

Affidavit Danial Morgan 6-25-2010 (bill bivens served/trailer/conspiracy).

14).

Affidavit Justin Bell 8-11-2010 (est history mcsd & tellico plains corruption).

15).

Affidavit Hugh Edwin Voylos 3-8-2007 (drugs/abduction/MCSD & tellico plains corruption).
And Affidavit Danial Morgan 2-26-2007 (drugs/mcsd & tellico plains corruption).

16).

Affidavit Billy Henry Miller 10-27-2015 (denial of medical/attempt to murder).
1

17).

Affidavit George Raudenbush 4-21-2011 (jones & millsap conspire to commit perjury).

9?

18).

Affidavits Joan Champion 1-17-2011,1-31-2011, 2-1-2011 (fear for life and injury).

19).

Affidavit George Raudenbush 10-27-2015 (harm and injury as a result of bivens, jones &
millsaps actions).

20).

3 Affidavits Gary Church 6-21-2010, 11-5-2010,11-29-2010 (a.y.m trailer theft).

21).

Affidavit of Wayne Biven’s A.Y.M Trailer, 11-29-2010.

22).

Affidavits to investigate perjury and malice of officer Jones concerning the blue ford escort.

SUPPORTING EVIDENCE EXHIBITS
A).

12 color photographs of plaintiffs vehicle taken by Gary Church supported by affidavit.

B).

911 county call transcript 12-30-2010.

C).

Medical evaluation/report of plaintiff by Attorney David Sexton 2-15-2019.

D).

CNW Press Release corruption group forms in Monroe County 6-15-2007.

E).

Dawson v. Bill Bivens Memorandum & Order 2-24-2014.

F).

Letter of sale of 45 ft trailer to Appalachian Youth Missions 11-10-2010.

G).

Letter from Atty Pope of obstruction of registration 7-5-2006.

H).

Letter to McMinn Co Clerks Office for obstruction of registration 3-7-2007 and Sweetwater
TN Police Report of attempted theft of tag and registration sticker on youth mission truck.

I).

Motion for new trial, jury tampering 3-6-2015.

J).

Plaintiffs narrative of oral argument/ineffective counsel 9-20-2016.

K).

T.D.O.C medical evaluation of degenerative disc disease determined on 11-29-2011 from
injury’s sustain in January of 2011.

L).

Monroe County July, 2010, T.D.O.C Jail report failed re-certification, major issue
overcrowding.

M).

Monroe County T.D.O.C Jail report July, 2011. failed re-certification, major issue
overcrowding.

N).

Complaints filed against Monroe County Jail for violations of no heat and men sleeping on
bare concrete floors 12-2-2010.
CNW press release and Post & E-mail, M.C.S.D retaliation 7-29-2010, Truth flier 7-27-2010,
THP Incident Report #110021800, officer Travis Jones 7-27-2010.

O).

P).

CNW press release Bivens 7-27-2010.

Q)-

AYM trailer defective writ, legal letter of conveyance and letter of legal possession, 5-26-2010,
11-10-2010 and 12-6-2010.

R).

Media news report MCSD Jail many inmates complaining about denied medical treatment and
extremely cold temperatures in the jail. 11-7-2010.

S).

Eleven Letters sent to Governor Bill Haslam.

T).

Millsap’s suspension 2-15-1999.

U).

Millsap’s 911 check 12-10-2010.

V).

Letter of complaint officer Presley 7-7-2009.

W).

2 City of Tellico Plains tickets 2009.

X).

Brian Millsap’s Tellico Plains 2nd reprimand 7-20-2013

Y).

Dillingham v. Millsaps excessive force article 5-27-2007.

Z).

T.D.O.C Margret Wills 12-06-2013.

TRANSCRIPTS
i).

PLAINTIFFS 1ST TRIAL TRANSCRIPT PAGES 408-410, AUGUST 24, 2011.

2).

PLAINTIFFS 2ND TRIAL TRANSCRIPT PAGES 230, 289-296, NOVEMBER 24, 2014.

3).

PLAINTIFFS ORAL ARGUMENT FROM AUDIO TRANSCRIPT PAGE 14-15 SEPTEMBER
20, 2016.

4).

DEPOSITION OF PLAINTIFF PAGES 87-88, JULY 11, 2018.

5).

DEPOSITION OF MILLSAPS PAGES 10, 14-16, 37, 40, 41, 48, 49, OCTOBER 24, 2018.

AFFADAVIT
Comes now Charles Scotty Morgan, and states that he is lawful age, competent to testify, has personal
first hand knowledge of the truths and facts herein, the truths and facts herein are true, correct, exact
and not misleading.
1).

Affiant states he was present on November 24th and 25Ul 2014 between 8;30 am and 5:30 pm at
The Monroe Count Court House in Monroe County Tennessee.

2).

Affiant, states the following with accuracy and makes these statements for the court record and
other public records.

3).

I was called to be a witness in a trial for George Raudenbush. I was there both days of the trial. I
heard the judge speak to the juiy foreman and other jurors asking questions of each of them
about knowing George Raudenbush and Brian Millsaps. I noticed the jury foreman hand the
verdict to the bailiff after the trial.

4).

When members of the court asked the jury foreman if he knew Brian Millsap's he said he did 'nt
know Brian Millsap's. Brian Millsap's is the officer that assaulted George Raudenbush a
Christian missionary in our community.

5).

After the trial was over I left the courtroom and went downstairs. I saw Brian Millsap's coming
down the stairs. I heard in a loud voice the jury foreman say, “Congratulations”, to Brian
Millsaps. Brian had a big grin on his face when he saw the jury foreman, people standing
around the jury foreman looked toward Brian. The jury foreman went forward and met Brian
after Brian came off the stairs. They both embraced with a handshake then a hug. The jury
foreman initiated the embrace. Brian patted the jury foreman on the back telling him what a
good job he did. The jury foreman congratulated Brian again.

6).

I was completely shocked that the jury foreman would lie right in front of the judge and the

#/?/>• ^

court. The jury foreman and Brian Millsap's had both known each other and were talking about
family and friends. Four or five of the men from the jury were also standing around talking to
each other around where Brian and the jury foreman were talking. I stood there shocked as
they continued their conversation joking and laughing together about getting the conviction
against George Raudenbush. Finally, after a few minutes, I decided to leave. Brian and the jury
foreman were still talking as I left.
7).

I was bom and raised here in Monroe County all my life. I am 60 years old and have seen a lot
of things. I believe George Raudenbush did’nt receive a fair trial because of all the lies that
were told by the Monroe County Buzz but to see with my own eyes the jury foreman having
been good friends with Brian Millsap's, George never had a chance to a fair trial here
in Monroe County.

Date
Signed

V W. tfcz
v4"

9f

INDIVIDUAL ACKNOWLEDGMENT

| se.

State/Commonwealth of ■
County of

m.Month

day of _ P6b/D

On this the

3o(S

fain S)iy._____
Name of Notary Public
personally

appeared

, before me,

Year
, the undersigned Notary Public,

Sdo4f\i

idoft;

Nami(s) of Signgfs)
J3 personally known to me - OR □ proved to me on the basis of satisfactory
evidence

a
£

to be the person(s) whose name(s) is/are subscribed
to the within instrument, and acknowledged to
me that he/she/they executed the same for the
purposes therein stated.
WITNESS my hand and official seal.

STyco*--'

\

[S'*

fovir)

\tOtm 0€;>
*>

>

{S~*—

Signature of NotaryPublic

^iy

■-»

.5

: .

Place Notary Seal/Stamp Above

O L t' O n I 7
Any Other Required information
(Printed Name of Notary, Expiration Date, etc.)

\

\

.+r'‘

AFFIDAVIT OF TRUTH AND FACT
ry™»« now, Hugh Edwin Voyles (a senior citizen), and states that he is of lawful age, competent to testify,
frftc parcrmni fiwrf hnntl knowledge ofthe truths and facts herein, the truths and facts herein are true and
comet, complete, certain, exact and not misleading.
1. Affiant stales that he was present on June 25,2006 at 1:30 pm—3:00 pm at 141 Mason Hill Road
Madisonville, Tennessee 37354, affiants home.
2. Affiants, states the following with accuracy.
3. I became a trusted Informant and advocate against illegal drug manufacturing and distribution for
the Monroe County Sheriffs Department under Sheriff Doug “Tufly” Watson during the month of
June, 2006.1 did this because ofwidespread fflegal drug manufecturing and distribution in my
community of Monroe County, Tennessee, which is destroying our children, teenagers and adults. I
have «nwn»rf in the locations of over 14 Active drug labs since June 2006. Maify concerned citizens
have joined me In this effort in exposing foe truth about organized manufacturing and distribution
of illegal drugs in Monroe County, Tennessee. The Sheriff Doug Watson personally told me if I
foupd «ny nf his officers Involved in protecting these labs or officers not turning in
jnfivrmgtinn tn hfa office concerning tfaes8 labs, to contact him personally, he said they would be
fired.
4. In April of2006,1 was given information by a trusted source of a location of where active drug
manufacturing wnc taken place near my home. I imtnediatBly went to see the sheriff on three
Sfpprnte nccftfttona fait ha was not at his office. I decided to so see Monroe County Narcotics
Detective, Jeb Brown as I have the highest respect for Jeb, and he is an individual I would trust my
life with. Jeb, was not in his office either so I left a message as I did earlier with the sheriffs
secretary to contact me, as it was urgent. A week later, on June 25* 2006, between li30 pm and
3:00 pm, Narcotics Detective Jeb Brown came to my home. I shared information with Jeb about an
ncriv« illegal dreg manufacturing operation off of Wilson Station Road across from a Christian
youth mission (Appalachian Youth Mission). Jeb, acknowledged that he was aware that die ML
Akins Property across from the youth mission, was being used as an illegal drug manufacturing
facility. Jeb told me die Monroe County Sheriff’s Department couldn’t ever catch anyone onlhe
mi. Akins Property. One of my trusted sources, Charles Morgan, informed me that on April 7™ at
1 n-3n pm that he was present at tire M.L. Akins Property. Mr. Morgan recounted that a patrol
officer that night made a statement in front of himselfand mission’s coordinator George
Raudenbush, stating the officer had found a drug lab however another senior officer showed up
Acknowledging knowing these men, saying nothing was wrong. Mr. Morgan stated he and Ore
ml«<tinn*s coordinator for AYM, George Raudenbush. both witnessed this account, leaving
amyrfaaH anti In dfahelief Based upon this information given bv Mr. Mmw I contacted the
Sheriffs Department Mr. Morgan’s testimony has always been reliable, trusted and has resulted in
the discovery ofmeth labs in the past George Raudenbush has disclosed to me the hours that he
has personally observed known meth manufectors visting die MX. Akins Propoty late into fee
night A property that has no running; water or electricity which is very private and secluded.
George informed me that the property owners have given fell permission to these individuals to be
there on their property late at night to do as they wish. George told me that he has brought this to
the attention offee property owners several times. George has told me that the property owners
have give exclusive permission for these known meth manufactures to be there even after George
informed them about the suspicious activity going on there at all hours ofthe night and continuing
intn the early morning hours. George stated there are also other witness to these as well.
5. Next I shared addition information with Jeb Brown that concerned me greafiy. 18sked Jeb if he
knew about the recent attempted murder of a Tellioo Plains Man, George Raudenbush. “Do you

_r<5

/S

-saguaA os pro ‘aSpsjMOiq jmiosiad a9pa{MOiD(
pnBqisigjoaiBifeTpimpt8u}pB»tauuonpnBP8xa,nreua3<a^ai&noa‘paxio3<aimai8niai8Tps^
pnB sqput aqjjBip tMspjgv aAoqs 8ip paau 8Aaq i taqi Stapajs sepfoA m/wpa q8t»H * sp®8^ Vaco samoo

MOLlV31H»aA
;

V^r'/'X/’:Pan3‘s
f

T>

ajBQ

mamamoS Xfcmtoo (B90|
/Cihjs pro jdnzioa b aAaq &a pip am snaj oaipoip qqM nojsspn qpoX a oj jxan jq8u at qaj qiap^
Mjps os uaq* Ama »qp aip 3jooi a» SajiO* « H»no«d8a sguaqs
eomojuia^^p^
9ilL *1} jnoqa SnnpAm aoop ton saq pro jCjmnmtnoo jno uj Xibuoissjj^ OBpsjjqo 8 jo uopazninpjA
psangooo sqi paMOjia XjSniMonji ssq jnaaQisdaa asgoj sarey ooiIPX »q> P08 loanqiatoa
qgpsqs *pmoo aouno^ aqj. jmp pajsrfSstp are i ‘boubuiv n«J a» iOjnnoo jBaiS siqjjo(nBpsjj,D
pa8JBani3o9‘Jojs8dpaiitai)iBzpi3®sv'qsuqoapnBa8ai030BOJ9pjranpaitIuB«B8i|idn
.moa a) Ajandsnoo B jmp paaoiAUoa suing V nmn^oo gaj i -qsnquapnBg aSioag no ag on shm
ajatp ‘pjaj sioa Xaip paws pus mnomdsa «H°d «q®H oaflPI «H Sajpamos paSpajMoajpB
sums 7g ubobioo ipnqiBpmrH o&toaQ woqa amp 8appB smjsSpsaAni ajBAug ‘spmg
^ OBmapo angaq panadds ^isoosiad i |Bip *sp|i J0AO iqSnBitnp os 8ba i ^qsnqiispnBS eSioao
jo jspimii patdmajjB pro uopBQtniQ ‘Shntaaq ‘nopanpqB «p joj qqjsoodsai aq oj Maaq Xaip oq&
ram om jsaua oj asiyai joanpiBdaa sonog KujBjcj oaipai aqi pus inanqjBdaa spuaqg iCjnnoo
aomoiv «p ppioM iCq^ £a»ip naipipp ipiM oorespn ipno/C nBpsjnD b oj pan qnj Snip h UMOp
jnqs aj juba joa jnamjiBdaQ spuaqs tamos sarao^ aqj ppoM
"pasigBoo os pa; i 'ssatqsnq
sapowra no euaip sbm aq sb aSioao moqa amnfim Suppi ra patsaepq ^ibbm qaj „ipf iq
ism om* esaqn.naia
jyspmnoqa Snpipams op osniai )(asaop Aj/^ 'Ja& *(pm qpfi mo
om4 asaqi jo saanm oip Moaq psaQBdaa mod osnPl ««»P» *<&t P®pe i jnaaqwfea osjfod
)(0S80p
nnsu oajn»i aqijo nopafpsunfaipiq sq., <pagdaj q»[ joani om asaqMsaiiB
A|» raiuu *qar o» pies i ipaapoqs sba j u pioqe na sMonq psnoiBdap qgi«p aq» ‘As oj m psm
qaj *88m8o Jiaipjo jaqjja azniSoaai ^npip i jnq Bam aipjo sauna ipg aip am pia) *q8f idSioao ^o
SnpBaq pQB copanpqB aip m paA|OAm Apaanp oam om) aq) paoroa osas qaf ‘i^nqoapnB^ aSioag
jo japjnm padmasB aqi jnoqa pin *aa»ao poqa Moaq pjp aq pres qaf ^snu jnoqa SnppXna moidj

/
/

AFFIDAVIT OF TRUTH AND FACT
Comes now, Charles D. Morgan, and states that he is of lawful age, competent to testify, has personal first
hand knowledge of the truths and facts herein, the truths and facts herein are true and correct, complete,
certain, exact and not misleading.
1. Affiant states that he was present on April 7* 2006 at 10:15 pm meeting with George Raudenbush
at die mission property (Appalachian Youth Mission) located off Wilson Station Road in Monroe
County, Tennessee.
2. Affiants, states die following with accuracy.
3. George Raudenbush had called me saying he received a phone call from his neighbors. George
said that he was informed there were vehicles going back to the mission property and they were
hauling stuff out George asked me to go along with him as it was dark outside and he was
responsible for the property. I agreed to meet George at “God Wins House”. On the way up, to the
mission, George called the Monroe County Sheriffs Department on my cell phone asking diem to
meet us at the mission property. When we got to the mission property I went with George checking
die buildings and work mnterinls making sure everything was accounted for. Across from die
mission property was the M. L. Akins Property known for meth production. It was there this late at
night that a few individuals having former meth charges were gathered in the dark not having any
electricity or running water on the property. Their activity was very suspicious and that’s the
reason George was called to investigate by the neighbors. We both met the MCSD officer between
the mission property and the M.L. Akins Property. I was aware that theft and vandalism had
occurred on the mission property recently and this was a concern George had with these
individuals being on a secluded lot, that late at night drinking alcohol. I didn’t recognize die young
officer (I know some of the officers in the sheriffs depart from high school). The officer went over
to the 5 men standing and two men were sitting around an open wood fire. The officer spoke to
these men, then entered a poorly made plywood building on stilts. The officer was in the building
for about two mms. When the officer came out he seemed to be very happy. The officer came over
to George and I and said “we got em now” It’s a drug lab. At about this time another police eraser
pulled up and it was an officer, Sgt Williams. The young officer had called for back up. The
young patrol officer was very excited to share his findings with his Sgt After listening to the young
officer; Sgt Williams took die officer aside putting his hand on the officers shoulder and said “I
know these guys, there ok” The young patrol officer looked very confused and perplexed
explaining again with excitement what he had found in the building. Sgt Williams became very
stern with the young officer stating nothings going on here, leave it alone”. The young officer
appeared to be very discouraged and frustrated. Sgt Williams used his authority to stop any further
investigation and became upset with George the missions coordinator asking “where’s the stolen
property?” “Where’s the stolen property?” George replied back to the officer, “I only reported a
possible theft as die information given to me was by neighbors of suspicious activity going on this
late at night” George went on to explain that a lot of damage and theft had occurred on die mission
property recently and this was a genuine concern as he was responsible for die property. Sgt
Williams appeared to be very upset at having been called out this late at night mid the young
officer appeared to be in conflict with his Sgt about finding a drag lab. The men there on the MX.
Along Property were known in the community to be involved in illegal drug production. I was mad
that our local sheriffs department just looked the other way allowing this activity to continue.

SJ

€S

■>

X' \

/ Vef^alLM* : *
r *”

)

m

*•—•«» KIPWW**
-,-i.

■M3.nufrBui

:

'

;

i

pJ'Xry

■! i _^gj. *951118 $ 'r"T4
ijfeiljRUTOU.^'i1 :rr--'

■

-

-JSMJsSjK'.''-'.".

feToamaftw ft*’"■'•?■:

•iO ,'lNnOO
'ssgudA os pin ‘aSpajMoioi puosjad a3pa{Mom|
pmq jsjg jo an /Catp mp ‘Soipaaisnn jon pro psxa ‘ureirao ‘apidmoa *pauoo ‘aiuj an uiantp sptg
pin sqpu) aip jmp ‘jiABpsgv aAoqe aip puai aA«q i imp Supajs ub3jojm *q sajniQ ‘ spungy ‘MOn samoQ

JSIOIIYDMraaA
a

:pau8is

<*‘*CrT :9m

*r :

CONFIDENTIAL DOCUMENT
AFFIDAVIT

State of Tennessee
Monroe County
Comes the Affiant, Charles Scotty Morgan, under penalties of perjury who, being duly sworn and
competent, affirms to wit as follows:
I was not allowed to give this information at either of George Raudenbush's trials.
I met George Raudenbush in 2003 through my business Morgan Excavation of 35 years here in Tellico
Plains, Tennessee. I was born and raised here in Mount Vernon in Monroe County, Tennessee. I have
lived here in the Tellico area all my life. I met George through Appalachian Youth Missions where
George brought youth groups into our community helping senior citizens and low income family’s.
George was warmly welcomed into the community, by leaders of the community and was well
respected.
When the youth mission acquired property in July of 2004 on 1300 Wilson Station Road here in Monroe
County George brought in colored youth and youth groups into Tellico Plains. George was confronted by
Monroe County Sheriffs Department Deputy's after these groups arrived. George told me that those
groups were discouraged from coming back into Monroe County. I don't ever remember a colored
person living in Tellico Plains. Coloreds were discouraged from coming through Tellico Plains for many
years as I can remember.
It is well known in the community that local authority’s here in Monroe County are actively involved in the
illegal drug trade (manufacturing and distributing). If I named names and locations I would be putting my
life and the lives of my family in jeopardy. I will not do this because the state and the federal government
cannot protect me. I believe and know that those in authority here in Monroe County were actively
involved in an agenda to have George killed in 2006, and again in 2010. George was wrongly
imprisoned by the lies told by Brian Millsaps and Travis Jones. I believe because George filed federal
complaints about the sheriff, drug trafficking near the mission property and public corruption that Brian
Millsaps was sent to kill George on December 30', 2010.1 believe George would not be alive today if it
weren't for George getting to a telephone and calling for help. God played a big part in getting George to
Joan Champions house to make those calls. I believe this is the only reason he survived that night
surrounded by witness.
In 2006, my daughter, 20 years old at the time, spoke to me in confidence saying that Tellico Plains
Police Officer Brian Millsaps had pulled her over on highway 68 and issued her a ticket, saying he would
get the ticket dismissed if she would have sex with him. My daughter did the right thing and paid the
ticket and then told me about it My daughter did not file a complaint at the time because she was afraid
of the retaliation that could harm her or her family by filing a complaint against Brian Millsaps, a dirty cop
who has had several law suites filed against him by citizens in our community for using excessive force,
Rodney Dillingham was one of those victims who sued Brian Millsaps in federal court
I was present at both of Georges trials and sentencing hearings between August 24,2011, November
24,2014 and December 2014, here in Monroe County. I do not believe George had received a fair trial
at either trial.
There was no way with all the dozens of false and misleading news articles that the Buzz Newspaper (a
gossip paper run by a felon and controlled by sheriff Bill Bivins) circulated in Monroe County that George
could have received a fair trial. I believe from all that I saw and heard at both trials and knowing Sheriff
Bill Bivens George would never get a fair trial in Monroe County. George's second trial was rigged like
the first trial, where they made George represent himself without a lawyer. In the second trial George

CONFIDENTIAL DOCUMENT
was given a young inexperienced lawyer who wasn’t given enough time to prepare Georges case, ail
Georges attorneys motions were denied, the 911 recording of George asking for help from the 911
center asking for the state highway patrol three times, was not allowed in tiie court or for the jury to hear
and the fact that the jury foreman was friends with Brian Millsaps (the states leading witness)) the officer
who almost killed George back in December 2010.1 believe George could not and will never get a fair
trial in Monroe County until all the corrupt officials in Monroe County are put in prison. Georges trial and
jufy was rigged from the very beginning both times and I am not the only person that believes that who
has lived here all their life, in Monroe County.
George is One of the few persons I know to have questioned the authorities here about the drug trade
and have lived! George is kind, compassionate and walks with God. He is a man that prayed for his
abductor sent to kill him lying close to death in 2006 and again in 2010. George has no fear of death
because he walks with God. I have no doubt of this because 1 was the one that drove him to Sweetwater
Hospital that morning he had been abducted and tortured or two hours! I was there at the University of
Tennessee Nuro Brain Trauma Center where George told his story about how he prayed for his
abductor. I saw God working in the many tear filled eyes of the physicians and staff that day.
I am taking a big risk by talking about the things that have happened to George. If toe Monroe County
Sheriffs Department knew I was talking about these things they would retaliate against me. I have no
doubt about this. At the very least, officers in toe Monroe County Sheriffs Department would put me in
jail or burn my house to toe ground or worse, harm my family. I am currently in fear for my life by doing
this affidavit
I am doing this affidavit on behalf of George Raudenbush that the truth would come out and George
would be free from toe false charges he has had to bear. He is not a criminal! George informed me that
toe Governor, his attorney and an administrative board would be reviewing this affidavit and it would not
be made public or be copied or reproduced in any way outside of the Governor, his attorney and toe
board as stated, in this affidavit This is for toe safety of my family and myself.
Further
Affiant Saith Not,

^
----- -

Charles Scotty Morgan
ACKNOWLEDGMENT
State of Tennessee..
County of
/vLiTh
_____
/M
20 1 ^
On this
^ . J a.
day of__
, before me personally
appeared
S<L*>'hh,
YY)rr^ /to—_________________________________
to me known to be toe person described in and who executed the foregoing instrument and
d the same as his/her free act and deed, for toe purposes therein
acknowledged that he/she exe
setforthAy^Z,
/
M

(Notary Public)

20__n

My Commission Expires
y.

c-.

ss

AFFIDAVIT OF TRUTH AND FACT
Comes now, Fenton McCahffl, and states that he is of lawful age, competent to testify, has personal first
hnnrf knowledge ofthe truths and facts herein, the truths and facts herein are true and correct, complete,
certain, exact and not misleading.
1. Affiant states that he was present on January 12th, 2007 at 1:15pm and did appear before Evonne
Jones elected official cleric for foe vehicle registration office ofMcMinn County, Tennessee.
Affiant did also review Athens Police Department Report on January 19* 2007 with foe following
observations.
2. Affiants, states the following with accuracy.
3. I did accompany George Raudenbush to foe McMinn County Vehicle Registration Office, as
George was my passenger on January 12*2007,
4. George Raudenbush did in fact show Evonne Jones in my presence on January 12* 2007, a letter
from Elizabeth L. Miller Senior Tax Counsel for foe State of Tennessee Department of Revenue
dated December 20* 2006. Evonne Jones denied ever having received such a letter from the state
requiring her to transfer a title upon conditions stipulated in foe letter which George Raudenbush
had satisfied. I personal can verify that the documents Mr. Raudenbushs presented to this cleric
were exactfy as Paula Shaw and Elizabeth L. Miller requested in the letter both from Paula Shaw
and Elizabeth L. Miller.
5. On January 19*, 20071 did read in foil foe Athens Police Department Report stating a disturbance
was caused on January 12*, 2007 at 1:21pm at the Me Minn Co. Tag & Registration Office as I
was present with George Raudenbush during his entire visit I did not observe any disturbance
cause during that time by George Raudenbush, I observed George to conduct himself in a polite
and curtious manor using a humble tone ofvoice. George did apologize for not being able to arrive
on Thursday as per foe clerk’s instructions to George, at an earlier date.
6. 1 did however observe that foe Evonne Jones did appear to be emotional prior to Mr. Raudenbush
gaging jn any conversation with her. I also observed that Evonne Jones did become short with
George Raudenbush before George Raudenbush engaged in any conversation with Evonne Jones.
7. It is my observation and professional opinion as an ordained minister and prison chaplain that
George Raudenbush did conduct himself in a professional and Christian manor in complying with
foe states instructions to obtain a fide.

>c\0

%

&

a3SS3NN3JL I
do

o V3xvis

SS

mr-

Date:
Signed:

Lii±7
— *Vh, ^

I CERTIFY THIS TO BE A TRUE
AND ACCURATE COPY OF THE ORIGINAL
BY:

VERIFICATION

Comes nowJvlSants, Fenton McCahill stating that 1 have read foe above Affidavit, that foe truths and feds
therein are true, correct, complete, certain, exact and not misleading, that they are of first hand knowledge
persona] knowledge, and so verifies.

4^

AFFIDAVIT OF TRUTH AND FACT
Gomes now, Fenton McCahill, and states that he is of IawM age, competent to testify, has personal first
hand knowledge ofdie truths and facts herein, die truths and fects herein me true and correct, complete,
certain, exact and not misleading.
1. Affiant statesfeat he was present on January 12th, 2007 at 1:15pm and did appear before Evonne
Jones elected official clerk tor die vehicle registration office ofMcMinn Coiraty, Tennessee.
2. Affiants, states the following wife accuracy.

3. I accompanied George Raudenbush to the McMinn County vehicle registration office, as George
was my passenger dial day and 1 was more than glad to help George with errands for die mission.
George approached a clerk's window but before he could hand his paper work to die waiting clerk
a women terrified appeared and said *T1I take care of this one” The women identified herself as
the head clerk. She took the place of the other clerk. George politely said he had retained upon her
request to pick up a letter tiiat she said she would have prepared for George on Thursday. George
apologized for being a day late as it was Friday he explained he was unable to make it in on
Thursday. The cleric responded that George wasn’t ever going to get a letter from her office.
George responded “you asked me to return to this office to pick up a letter ofyour additional
requirements as you directed me to do, that's why I am here”. George further stated without the
letter staring your requirements how can I met your requirements? George further explained that If
the cleric was going to constantly change the requirements, legal counsel advised that the cleric
produce a letter for the additional requirements. The cleric become very agitated and then
redirected us both to her office. I found tins unusual because George’s request was not
unreasonable as he was polite In his request. George and I entered the clerk’s office as directed; we
both stood nwtwwt ofsitting as we both were uncomfortable with the clerk’s behavior. George
polity stated his position that he was there upon the clerics request to pick up the letter tiiat the
clerk stated she would give George. The cleric inferred in her statements that George was involved
in criminal activity and he would not receive a letter. The clerk then told George to leave, that she
never wanted to see him again in this office. George complied by stating in a polite voice, “I am
leaving, have a nice day.”
4. Both George and I mated the office immediately we got into my vehicle and talked for a few
minutes as we were both perplexed at the behavior of the clerk. George reassured me that God was
in control. As we were leaving the parking lot 2 police vehicles at high speed arrived in front of the
clerk’s office their tires squealing. It appeared they were in some sort of tactical operation in.,***"*,
emergency response. George and I looked at each other, perplexed again.
v

Date: i- iio-6 9

jw/

* ■ A,:

( fr^Mse^

uMskned:

| |

W\

7 ,

Comes now, Affiants, Fenton McCahill stating tiiat I have read the above Affidavit, that fee truths and fects
therein are true, correct, complete, certain, exact and not misleading, feat they are of first hand knowledge
personal knowledge, and so verifies.

S3

I CERTIFY THIS TO BE A TRUE
AND ACCURATE COPY OF THE ORIGINAL

BY:

ACTIBAVIT OF TRUTH A3SP FACT
Comes now, Gary Church, and states tint he Is of lawful age, competent to testify, has personal first hand
knowledge ofthe troths and facts herein, die troths and facts herein ate true and correct, complete, certain,
exact and not misleading.
1. Affiant states that he was present on Jammy 1st; 1999 at aronnd 9:00 am and did appear with and
was directly involved in Fellowship with Fishes & Loaves fellowship a fellowship of believers
truing in McMinn County and other parts of Tennessee as I am an active participant
2. Affiant, states fee following wife accuracy.
3. My name is Gary Church; I am senior elder and Counsel Member ofAppalachian Youth Mission a
Charitable, Educational and Religious society (vfeich is always free), feat promotes mission work
for adults and youth worldwide.
4. I am a tax payer, registered voter and property owner (148 CR 654 Athens, TN 37303) here in
McMinn County, Tennessee.
5. The fellowship has 3 Isuzu Diesel long bed tracks and one Ford Ranger long bed trade used for
mission work; these tracks are located in McMinn Co and are often here stray residence.
6. George Raudenbush reports to fee counsel as he is fee lawftd administrator & manager over fee
vehicles and mission property which fee counsel governs. As is on Record wife fee Tennessee
Board ofEquatization, a board consisting of licensed ofAttorneys and public record. George has
fee authority to register and transfer vehicles in Fishes & Loaves Fellowship as part of his
responsibilities.
7. I recently applied for and was given a registration renewal, new tag on one ofthese trades as fee
r-nmvrel tins fill! authority over these vehicles, contrary to false and misleading information
supplied to a local news paper which quoted George as obtaining fee tag inferring it was obtained
under false pretenses.
8. George Raudenbush was instructed by fee counsel to provided both McMinn Co addresses as
follows: Legal address (where fee mission receives its mail) AYM, P.O. Box 1076 Englewood, TN
37329 and fee address where fee vehicles are based out of 148 CR 654 Athens, TN 37303. The
Mission Property and its surrounding neighbors all have McMinn Co. mailing addresses and fee
closest neighbor to fee mission (Joe & Marlene Duncan) have McMinn Co. Tap on there vehicles.
9. George reported back to fee counsel feat these addresses were provided to Evonne Jones Clerk of
fee McMinn County Tag & registration however, George reported back feat Counfy Cleric, Evonne
Jones refused to accept these legal addresses in McMinn Co. to register mission vehicles.
10. George was instructed to seek legal counsel concerning these events and did so accordingly.
George followed fee instruction of The Tennessee Department ofRevenue as per Senior Tax
counsel Elizabeth L. Miller, by visiting fee McMinn Co. Tag & Registration office recently.
11. George has been entrusted to a position of great responsibility, he receives no salary or wages of
any kind yet he has dedicated bis life to serving others as a missionary, I have investigated many
minting stemming from accusations concerning Georges conduct and accountability to fee public
and this counsel The Counsel to date has never found any evidence to support any claim made
which would cause fee counsel to question George’s integrity or discipline him. George is hilly

sf

i CERTIFY THIS TO BE A TRUE
AND ACCURATE COPY OF THE ORIGINAL
BY:

GW

.

/

■*

accountable for all his actions and the counsel continues to hold him in that position of
accountability.
12. It is my opinion that there are individuals in the community having personal agendas that are anti
Christian in nature that may be involved in a consorted effort to discredit die character and
Christian woric of Georgs Raudenbush. Some ofthese individuals hold great positions of
responsibility and authority incur community which sadness my heart It is my genuine desire to
continue to pray for these individuals timt ftey may cone to repentance and experience die
wonderfbl peace and joy that Jesus has for them.

«/state\^

(•

• Date: /' /
CorAyrft»^4.ox>->

Q/
^7

OF
\
LspFNNESSEE }
NOTARY

^7

VERIFICATION
Comes now, Affiant ,Gaiy Church stating that I have read the above Affidavit, that die truths and facts
tftfqiptm ara fme, correct, complete, certain exact and not misleading, that they are offirst band knowledge
personal knowledge, and so verifies.

op 7/tf

Here 'h i

(nun

nrcyffld) ^jmtvm ~£Lr
cyiu&y 'bom qjpw& nnWfdl

-Qm&i/i fTrvw 'qfnvfjmaf Qff "¥
* arvrp)^ nqyr}-$ mf^ ^r^

nrrn

arwyd

oy_
cptrfywyj
7
y ywo Off>?]p
nrmn
Cfyfi
crvr^&4 ppp&fr a> Tyf f^rfpfv^ r*7&W T771/

mj cyrn- nrp^ 'njrf
Pf- QIOH'OP
c^p^'^vim/

Qv/(mi/ 7®

oj. 'Twvd <^^70^C/^I(^7<?^^CSP
n^Tfm rprvfi rympf

f

\ '

AFFIDAVIT OF WITNESS TO
CONDITION OF 1986 FORD ESCORT JAN. 5TH 2011
Comes now,Gary Church^nd states that he is of lawful age^ompetent to testifyhas personal first hand
knowledge of the truth and feds herein,ttie truths and feds herfn are true and correct
These lads are complete,certaln,exad and not misleading.

1. Affiant states that he was present on Jan. 5,2011 sometime between
9:30 and 4s59 pm at Robert Hamilton's parts yard in Tellico Plains, Tennessee

by Teliico Mice on the night of Dec30 2010 and the morning of D&312010.
3. Affiant states: The condition of die vehicle does not refled any impad of any kind.
Upon inspection^ has no dents scratches anywhere,except where the driver window was broken.

/£$-—

; / s?te VK
i (tennessee! \
i : NOTAftv E/ i

3

TRANSCRIPT OF RADIO TRAFFIC
AND 911 CALLS
December 30 & 31, 2010
(Transcribed from Audio Recording)
RE:

George Raudenbush

ft
VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

2
1

OFFICER BRIAN MILLSAPS:

2

CENTRAL:

3
4
5

505.

505.

OFFICER BRIAN MILLSAPS: I'm
out with a plate. I don't know what state or
what country it's from here. It's Lincoln,
Union, King, Edward, 418. I'm here at Mecca
Pike and 68. I'll try to advise you here in
just a minute.

6
7

CENTRAL:

10-4.

What's your

(inaudible.)

8

OFFICER BRIAN MILLSAPS:

505.

I'm in pursuit.
9
10

OFFICER TRAVIS JONES:
you call it and I'll chase him.

11

OFFICER BRIAN MILLSAPS:
George Raudenbush.

505,
It's

12
CENTRAL:

Copy.

13
14

OFFICER BRIAN MILLSAPS: He's
headed southbound, Central. Coming up on 165.

15
16
17

CENTRAL:
him, 05.

Copy.

OFFICER TRAVIS JONES:

Get to

OFFICER BRIAN MILLSAPS:
continuing (inaudible) southbound.

He's

18
19
20
21
22

OFFICER DOUG BRANNON:
I'm on the mountain. Let me know.

05, 10.

OFFICER BRIAN MILLSAPS: 10-4.
It's a little blue Escort. George Raudenbush
driving it.
OFFICER TRAVIS JONES:
road block right here.

Rolling

23
24
25

try it.

OFFICER BRIAN MILLSAPS:
OFFICER TRAVIS JONES:

tried to hit me right there.

We'll
He just

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

- S3

3
1
Central, note.

OFFICER BRIAN MILLSAPS:
He just tried to ram 709.

2
CENTRAL:

Copy.

3
4

Be southbound.
Road.

OFFICER BRIAN MILLSAPS: Okay.
Coming up on Unicoi Church

5

CENTRAL:

Copy.

6
7

OFFICER TRAVIS JONES:
coming to you, Brian.

He's

OFFICER BRIAN MILLSAPS:

8
9

CENTRAL:

10-4.

Central, 709 — or

505.
10
OFFICER BRIAN MILLSAPS:

Go

11

ahead, Central.

12

CENTRAL: Just need to confirm
this is the same vehicle with the strange tag,
10-4?

13
14
15

OFFICER BRIAN MILLSAPS: It's
the tag I was out with. It's some kind of
unofficial tag.

16
17

CENTRAL:

Copy that.

OFFICER BRIAN MILLSAPS:
coming up on Martin Road.

We're

18
CENTRAL:

Copy.

19
OFFICER BRIAN MILLSAPS:
20

a mountain, Doug.

21

OFFICER DOUG BRANNON:
camp (phonetic) headed your way.

22
23
24
25

— up
Got the

OFFICER BRIAN MILLSAPS:
tried to ram 709 again, Central.
CENTRAL:

He

Copy.

OFFICER TRAVIS JONES:
you at, 05? Where you at, Brian?

Where

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

4?

4
1
2

OFFICER BRIAN MILLSAPS: About
halfway up a mountain. Central, he's still
trying to ram 709.

3
CENTRAL:

4
5

the lead, Brian.
truck.

Copy.

OFFICER TRAVIS JONES: Take
He's done something to my

6
OFFICER BRIAN MILLSAPS:

7

—

pqgin over the mountain here. You want to
it, there, 09?

8
9

OFFICER TRAVIS JONES: Hey,
Doug, when you come up on him, don't light him
up right then 'cause he'll ram you.

10
11
12
13

OFFICER DOUG BRANNON: 10-4.
I'm going to try to get say about Pond Ridge
and take it from there and see what to do.
OFFICER TRAVIS JONES:
He's hit my truck three times.

10-4.

OFFICER DOUG BRANNON:

10-4.

14
15
16
17

Single occupant?
OFFICER TRAVIS JONES: 10-4.
Brian, I'm back up to speed here, Let me take
over right here.
OFFICER BRIAN MILLSAPS:

All

18

right.

19

OFFICER DOUG BRANNON: If I
can make it, I'm going to go to Sandy Lane.
That'll be the last point he can turn.

20
21
22
23

OFFICER BRIAN MILLSAPS:
got any (inaudible?)
Negative.
I got.

You

OFFICER DOUG BRANNON:
I'm fixing to pull over and see what

24
OFFICER BRIAN MILLSAPS:

25

OFFICER DOUG BRANNON:

10-4.
Where

VOLUNTEER COURT REPORTING
WWW.

(865)207-2278
volunteercourtreporting.com

/*
/)/*/*' ° •D

5
1

you all at?

2

OFFICER BRIAN MILLSAPS: We're
right here at the first entrance to Pond Ridge.

3
4

OFFICER DOUG BRANNON: I ain't
going to make it. I'm coming up on the
S-curves at Davis Mountain.

5
6

OFFICER BRIAN MILLSAPS:
going down Pond Ridge, Doug.

7

OFFICER DOUG BRANNON:

He's
First

or second?
8
9

OFFICER BRIAN MILLSAPS:
entrance, close to Tellico.

10
11
12

OFFICER DOUG BRANNON:

10-4.

OFFICER BRIAN MILLSAPS: He's
45'd out here, Central. He's 45'd out in the
road.

13
14

First

CENTRAL:

10-4.

Copy that.

On Pond Ridge?
OFFICER BRIAN MILLSAPS:

15
16
17
18
19
20
21
22

He

got going again.
CENTRAL:

Copy that.

OFFICER BRIAN MILLSAPS: 731
and 789, if you get up there, try to get to the
second entrance.
UNIT 731: 10-4, 31. I'm
behind him on Kimbler Drive (phonetic) right
now.
OFFICER BRIAN MILLSAPS: Guys,
they're going up a driveway and it ain't
marked. It's about middle ways to the top.
Going into a residence.

23
CENTRAL:

24
25

you with him?

Copy.

OFFICER DOUG BRANNON:

Travis,

VOLUNTEER COURT REPORTING
(865)207-2278
www .volunteercourtreporting.com

6
1
2
3

Negative.
right.

OFFICER TRAVIS JONES:
Subject ran me off.

OFFICER DOUG BRANNON:
Brian, where you at?

4

All

OFFICER BRIAN MILLSAPS:

I'm

on foot.
5
CENTRAL:

Copy.

On foot?

6
7
8
9
10

OFFICER TRAVIS JONES:
your status, Brian?

What's

OFFICER DOUG BRANNON: I'm at
the second entrance going down, I don't know
where he was.
OFFICER BRIAN MILLSAPS:
(Inaudible) back of Pond Ridge.

11
CENTRAL:
12
13
14

out here.
number.

OFFICER BRIAN MILLSAPS: 44
I don't know the numerical highway

15
16
17
18
19
20
21
22
23

Central 505, you

10-4?

of the numerical.

CENTRAL: Copy. 44.
Did you copy, 705?

Unsure

OFFICER JOHN WILBURN: Sure
did. Hey, Brian, how far past that red truck
on the side of the road?
OFFICER BRIAN MILLSAPS: Let's
flip over to talk-around (phonetic) so I can
hear you.

CAPTAIN JOHN WILBURN:
out here with him.

709s,

CENTRAL: Copy, 709.
UNKNOWN OFFICER: 709, can you
see lights in the road?

24

OFFICER JOHN WILBURN:

789,

where you at?
25
Unit 789:

Coker Creek going

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

7
1
2
3

up the mountain, Captain.
OFFICER JOHN WILBURN: All
right. I'm right behind you. (Inaudible) is
out here somewhere. Don't know exactly where.
(Inaudible) cruiser to the road. Go on down
the road.

4
UNKNOWN OFFICER:
5

We're 10-97.

(Inaudible.)

6

OFFICER DOUG BRANNON:

710's

out.
7
CENTRAL:

Copy.

710 out with

8

him.

9

OFFICER DOUG BRANNON: Which
side of the road, to the right or left here,
Brian? Go down to the pond and back up.

10
11

OFFICER TRAVIS JONES:

709 to

OFFICER JOHN WIIBURN:

Go

705.
12
13

ahead, Travis.

14

OFFICER TRAVIS JONES: If he's
still out on foot, I've lost him. Do you think
we can get a dog? He hit my truck three times
during this thing.

15
16
17
18
19
20
21
22

OFFICER JOHN WILBURN:

10-4.

705 County.
COUNTY:

County.

Go ahead.

OFFICER JOHN WIIBURN: — dog
(inaudible.) Be en route up here to Pond
Ridge, first entrance, for a track.
COUNTY:

10-4.

OFFICER BRIAN MILLSAPS:
take the first entrance.

23
24
25

UNKNOWN OFFICER:
UNKNOWN OFFICER:
is that you behind me?
UNKNOWN OFFICER:

10-4.
(Inaudible)
Yeah, 10-4.

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

8
1
UNKNOWN OFFICER:

2
3

I'm sliding.

OFFICER DOUG BRANNON:
him up here in the house.

4

OFFICER TRAVIS JONES:

I got
You at

the house, Doug?
5
6
7
8
9
10

OFFICER DOUG BRANNON: He ran
right in front of my car and was speaking to
the resident. He's in the house.
OFFICER TRAVIS JONES: Hold
the perimeter. We'll be on you in a minute.
We 11 have several units on you.
OFFICER DOUG BRANNON:
This subject's trying to talk to him.

11

CENTRAL:

12

911:

emergency?

10-4.

Copy that.

911.

What's your

13
14

GEORGE RAUDENBUSH:
you have state highway patrol?

15

911:

I help you?

Okay.

Yes.

Do

This is 911.

Can

16
17

GEORGE RAUDENBUSH:
state highway patrol?

18

911:

Is this

We dispatch for them.

What's your name?
19
20

GEORGE RAUDENBUSH: I need
state — the number for state highway patrol.

21
22
23

You've got me.

911: You've called 911, sir.
Who is this?

GEORGE RAUDENBUSH:
state highway patrol?

24
sir.

911:
Can I help you?

Is this

We dispatch for them,

25
GEORGE RAUDENBUSH:

Yes.

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

Yes.

9
1

I had a Tellico Plains police officer try to
kill me tonight.

2
911:
3

Okay.

Mr. Raudenbush?

4
bleeding.

Yes.

Is your name

GEORGE RAUDENBUSH:

I am

5
6

911: You are bleeding?
you need an ambulance?

7
8

GEORGE RAUDENBUSH:

I need the

state patrol.
911:

now
9

Do

Okay.

Sir, we — right

GEORGE RAUDENBUSH:
speaking with, please?

Who am I

10
911: You're speaking with
This is Monroe County dispatch.

11

1360.

12

GEORGE RAUDENBUSH: Okay.
Well, I need — I had an officer try to — a
Tellico Plains officer tried to kill me
tonight.

13
14
15
16
17
18
19
20

911:
officer off the road.
That's not true.

And you tried to ram my

GEORGE RAUDENBUSH:

No, sir.

911: Oh. Well, sir, I
believe that it is. But how can we — how can
we solve this where we can get you out?
GEORGE RAUDENBUSH: I need a
state patrol officer, please. I will only talk
to a state patrol or an FBI officer.

21
22
23
24
25

911: Okay. Well, we'll —
we're telling oour officers that now to see if
we can get that worked out. Okay?
GEORGE RAUDENBUSH: I'm not
going to talk to a Tellico Plains' police
officer who tried to kill me tonight or a
Monroe County Sheriff's Department. I want to
speak with state patrol.
VOLUNTEER COURT REPORTING
WWW.

(865) 207-2278 _
volunteercourtreporting.com

A

n_d
'

10
1
2

911: I know, and we have
relayed that message to them, sir.

3

GEORGE RAUDENBUSH:

patrol?

To state

4
5

911: We have relayed the
message to our officers that you are requesting
to talk to state patrol.

6
7

GEORGE RAUDENBUSH:
relay that to state patrol?

8
9
10
11
12

officers.

Did you

911: I've relayed it to our
That is their decision.

GEORGE RAUDENBUSH:
not relayed it to state patrol?

So you've

911: I've relayed it to our
officers that you are requesting THP. THP does
not have this kind of jurisdiction. THP is
a

13
14

GEORGE RAUDENBUSH: Sir, I
just had an officer try to kill me tonight —

15

911:
enforcement agency —

—traffic

16
17
18

GEORGE RAUDENBUSH: — in my
vehicle, pulled over, co:implying with him 100
percent. Complying with. him —

911:

19

Okay.

Well —

GEORGE RAUDENBUSH:

— and he

20

tried to kill me.

21

911: You know, sir, I wasn't
there. I can't say yea or nay on that one,
sir, but it sounds a little unlikely to me.

22
23
24
25

GEORGE RAUDENBUSH:

Yes, sir.

The 911 center.
911: Yeah, this is 911.
there anybody in that room with you —

Is

VOLUNTEER COURT REPORTING
WWW.

(865) 207-2278
volunteercourtreporting.com

„ p
'y/ "

11
1
2

to state patrol.

GEORGE RAUDENBUSH:
Thank,you.

3

911:
to get state patrol?

4

UNKNOWN OFFICER:
flashlights (inaudible. )

5

CENTRAL:

6

How are you going
— your

Central 710.

OFFICER KILE:

7
8

Okay.

I'll talk

Go ahead.

CENTRAL: We have this subject
on 911 at 244 Pond Ridge Road. 244 Pond Ridge
Road.

9
OFFICER KILE:

(Inaudible.)

10
CENTRAL: 705, 710. Everybody
He's requesting to speak to THP.

11

be advised.

12

OFFICER JOHN WILBURN:
not going to be a request.

13
14

There's

OFFICER BRIAN MILLSAPS: It's
not an option, Central. He's an escapee as of
right now.

15
CENTRAL:
I thought so.

Copy that.

16

that.

17

OFFICER JOHN WILBURN:
31 be on you in just a second.

Copy
Me and

18
19

UNKNOWN OFFICER:
across
from (Inaudible) Street. What do you advise?

20

OFFICER BRIAN MILLSAPS:

505.

Central 505.
21
CENTRAL:

22

505.

OFFICER BRIAN MILLSAPS:
23

(Inaudible.)

24

CENTRAL:

505, I apologize.

I

couldn't copy.
25
OFFICER BRIAN MILLSAPS:
VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

/)//■

"50

12
1
2
3
4
5

Notify 502 and just advise what I got.
CENTRAL: Copy. Notify 502.
OFFICER DOUG BRANNON: 709,
I m fixing to try to make contact. He's in a
house with an elderly subject. 10-4?
CENTRAL: All units be advised
we just lost contact with him.

6
7
8

OFFICER DOUG BRANNON:

—

elderly resident.
OFFICER BRIAN MILLSAPS:
I got my guys set up on perimeter.

9

OFFICER DOUG BRANNON:

10-4.
— talk

him out.
10
UNKNOWN OFFICER:
11

make (inaudible.)

12

UNKNOWN OFFICER:
at the car, Brian?

Where do I
(Inaudible)

13
14
15

OFFICER BRIAN MILLSAPS: Come
on down the road, guys, I don't know if he's
got it blocked or not. We're on down Pond
Creek.
UNKNOWN OFFICER: (Inaudible.)

16
17

911: We knew this was going
to be — what the officer — 911. Monroe
County 911.

18
19
20

GEORGE RAUDENBUSH: Yes.
need the number for state patrol, please.
911:

Do you have an

emergency, sir?

21

GEORGE RAUDENBUSH:

22
23

I

emergency?

DISPATCH:
This is 911.

Yes, I do.

What's your

24

GEORGE RAUDENBUSH:
need the number for state patrol.

Okay.

25

911: If you want state
patrol, you'll have to call for information.

I

VOLUNTEER COURT REPORTING
(865)207-2278
www.volunteercourtreporting.com

Afif. i ?

13
1
2
3

GEORGE RAUDENBUSH: Yes,
Thank you.
OFFICER DOUG BRANNON: 709,
get one of you all around here with me.

ma'am.

4

OFFICER TRAVIS JONES:

10-4.

(Inaudible.)
5
UNKNOWN OFFICER:

10-4.

6
7
8
9
10
11
12

OFFICER DOUG BRANNON: 10-4.
I'm trying to determine that everybody else is
out of the house and out of contact before we
try to make contact.
CENTRAL: Be advised, we have
that number, He's called 911 times 3. He just
keeps asking to talk to state patrol.
OFFICER DOUG BRANNON: 10-4.
You keep him on the line. Advise him that I'm
going to step forward into the room here in
just a minute to make contact with him.

13
14

CENTRAL: He refuses to stay
on the line with us if we won't transfer him to
state patrol.

15
16
17
18
19

22

10-4.

OFFICER TRAVIS JONES:

709.

OFFICER DOUG BRANNON: Yeah.
Let me swap one of these Tellico fellows out
for somebody with a taser just in case.

20
21

OFFICER DOUG BRANNON:
709.

UNKNOWN OFFICER:

I'll switch

out with them.
OFFICER BRIAN MILLSAPS:
got more coming up the hill, Doug.
OFFICER DOUG BRANNON:

You
All

23

right.

24

CENTRAL: 505, just going to
advise you, 502's been notified. She's
monitoring.
OFFICER BRIAN MILLSAPS: 505

25

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

14
1

to 17.
you.

There's a child in there, too.

Advise

2
UNKNOWN OFFICER:

Central,

3

we're code Mary.

4

OFFICER DOUG BRANNON:
Central, 710, 10-15.

5
CENTRAL:
6

710, copy 10-15 at

2306.

7

OFFICER JOHN WILBURN:
Central, 705.

8
CENTRAL:

705.

9
10
11
12

OFFICER JOHN WILBURN: I have
an EMS Signal 8 up here for (inaudible.)
CENTRAL: 10-4. They'll be
coming out of Madisonville. They've got 35 en
route to a seizure call at this time.

13

OFFICER JOHN WILBURN:

14

10-4.

OFFICER BRIAN MILLSAPS:
Central, 505.

15
CENTRAL:

16
17

OFFICER BRIAN MILLSAPS:
(Inaudible) up here on Pond Ridge Road.

18
19

505.

CENTRAL:

Yeah.

We got

(inaudible.)
UNIT 731:

Central, 731.

20

21
22
23

24
25

CENTRAL: 731.
UNIT 731: Have you got EMS
and fire en route to us or just EMS?
CENTRAL: Just EMS. We've got
another call in the Tellico area. 32's
actually going to be headed your way.
UNIT 731: 10-4. Go ahead and
signal 9 them and we'll get into that. We'll
shake him out there. 89, those are my cuffs on
VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

*

l-s

15
1

him as well.

2

them in your box.

UNIT 789:

10-4.

I'll put

3

CENTRAL:

4

OFFICER KILE:

5

CENTRAL: 716's calling here
wanting him to give him a 21 whenever he got a
chance.

6
7
8

Central to 710.
710:

Go ahead.

OFFICER KILE: 10-4. When you
still got him on the line, but we don't have
service.

9

CENTRAL:

10-4.

That's what I

advised him.
10
11

County.

OFFICER JOHN WILBURN:
705 to Monroe County.

12
13
14

COUNTY:

County.

705

Go ahead.

OFFICER JOHN WILBURN:
have him come up on the radio.
COUNTY:

21,

10-4.

15
UNIT 789:

16
17
18

CENTRAL:
UNIT 789:
one male (inaudible.)

19
20

21

CENTRAL:

Central 789.
789.
98, 10-6.

10-15

(Inaudible) 15.

UNIT 789: But also, could you
have 432 meet me at the back gate.
CENTRAL:

22

10-4.

505.

OFFICER BRIAN MILLSAPS:

23

CENTRAL:

24

Hamilton's en route.

OFFICER BRIAN MILLSAPS:
25

505.
10-4.

Appreciate it.
VOLUNTEER COURT REPORTING
(865) 207-2278
/\
WWW. volunteercourtreporting.com
fifP'

16
1
2

UNIT 701: 701 to 705.
UNKNOWN OFFICER: Sure.
you go ahead and clear it, please.

3
4
5
6
7
8
9

SHERIFF:

Could

Go ahead, Captain.

OFFICER JOHN WILBURN: Just
going to advise, we've — 709 and a Tellico
unit attempted a 10-81 on a George Raudenbush.
He ran from them. He rammed Travis's unit
several times. We do have him. He's got him
apprehended. He wanted to do a THP report and
it's minor cosmetic damage is what we've got on
these vehicles.
SHERIFF: 10-4. I believe we
probably should, you know, with him anyway.

10
Appreciate it.

OFFICER JOHN WILBURN:

10-4.

11
SHERIFF:

You need me to come

12

out, Captain?

13

CAPTAIN: Sheriff, you can use
your own discretion. We're good here.
(Inaudible.)

14
15

OFFICER JOHN WILBURN:

Central

705.
16
CENTRAL:

17
18
19
20

705, go ahead.

OFFICER JOHN WILBURN: THP
request to this location. The first entrance
to Pond Ridge off 68, you'll see our lights.
THP request to this location. The first
entrance to Pond Ridge off 68.
CENTRAL: Copy that.

21

OFFICER JOHN WILBURN:

705

County.
22
23
24

COUNTY:

County.

Go ahead.

OFFICER JOHN WILBURN: Did you
signal on that dog? Did you call them?
COUNTY:

10-4.

25
CENTRAL:

Central 705.

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

THP en

77

17
1
2

route, coming from Blount.
UNIT 705:
705.

3
4

10-4.

Central,

OFFICER JOHN WILBURN:

Central

705.
CENTRAL:

5

UNIT 705:

6

CENTRAL:

7

Unit 705:

705.
Hey, 505's 10-81 9?
2243.
10-4.

I'm 10-98,

back in service.
8
CENTRAL:

2325.

9
10

UNIT 731:

Central 731.

Unit 789:

Central 789.

Same

traffic.

11

CENTRAL:

789.

12
13
14
15

UNIT 789: I'm 10-97
(inaudible.) It's 10-15. I'll be 10-6.
they open back gate, please.
ain't no problem.

UNIT 710:
CENTRAL:

Central 710.

Can
That

2335.

16
17

OFFICER BRIAN MILLSAPS:
Central, 505.

18
19
20

CENTRAL:

505.

OFFICER BRIAN MILLSAPS:
you copy for a VIN?
CENTRAL:

Can

Go ahead with it.

21
22
23
24

OFFICER BRIAN MILLSAPS:
1FABP3194GT145947.
CENTRAL: 10-4. That is a '86
Ford. A Rick Rosenbalm out of Knoxville. 29's
are negative. Show tag to be displayed,
527KGL.

25
OFFICER BRIAN MILLSAPS:
VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

10-4.

18
1

I'd bet it's safe to say this is the one that
ain't right on it, right?

2
CENTRAL:

Copy that.

3
UNIT 789: — get the gate,
4

please.

5
89.
6
7
8

UNKNOWN OFFICER:
We'll try to get to it.

Stand by,

UNKNOWN OFFICER: — Captain.
He's wanting to speak to you back here in the
back.
UNIT 701: 701 to 705.
OFFICER JOHN WILBURN:

9

705.

Go ahead.
10
11

UNIT 701:
can, give me a 21.

12

OFFICER JOHN WILBURN: 10-4.
Your home number? 705 County. Appreciate you.

13

COUNTY:

Captain, when you

Ain't no problem.

14
15

18

701 to

OFFICER JOHN WILBURN:

Go

705.

16
17

OFFICER TRAVIS JONES:
ahead.
OFFICER TRAVIS JONES:
you to switch over to encrypt.

19
one.

I need

OFFICER JOHN WILBURN: Just
I'm on the phone with (inaudible.)

20
OFFICER TRAVIS JONES:

10-4.

OFFICER JOHN WILBURN:

Central

21
22
23

24
25

705.

CENTRAL:

705.

OFFICER JOHN WIIEURN: Hey,
that VIN that 505 ran, who did that come back
to?
VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

19
1

CENTRAL: It came back to a
Rick Rosenbalm out of Knoxville.

2
3

705 to 709.

OFFICER JOHN WILBURN:
705 TO 709.

4
ahead, Captain.

OFFICER TRAVIS JONES:

10-4.
Go

5
6

OFFICER JOHN WILBURN:
want to go ahead and switch now?

7

OFFICER TRAVIS JONES:

You
10-4.

(Inaudible.)
8
9
10
11

UNKNOWN OFFICER: — couldn't
occur here at this scene. Is it all right if
we met him somewhere on 68 (inaudible?)
OFFICER DOUG BRANNON: 10-4.
I'll do that. Also, he's wanting to go to the
hospital now, so it's going to be transport.

12
13
14

UNKNOWN OFFICER:

10-4.

OFFICER BRIAN MILLSAPS:
Captain, you still on here?
OFFICER JOHN WILBURN:

Yeah,

15

10-4.

16

OFFICER BRIAN MILLSAPS: Since
that's my guy, do I need to get somebody to sit
with him for you guys or how do we need to
handle that part?

17
18
19

OFFICER JOHN WILBURN: I'll
get back with you in just a second. 705 to
505.

20
OFFICER BRIAN MILLSAPS:
21

ahead, Captain.

22

OFFICER JOHN WILBURN:
back in cell service?

Go
You

23
24

That's a 10-50.

OFFICER BRIAN MILLSAPS:
I can swap over.

10-4.

OFFICER JOHN WILBURN:
(Inaudible)

25
Swap over.

Yeah,

VOLUNTEER COURT REPORTING
(865)207-2278
www.volunteercourtreporting.com

20
1
OFFICER TRAVIS JONES:

Go

2

ahead, Captain.

3

OFFICER JOHN WILBURN: Stand
by on that — what we talked about. I'm trying
to get that — make that happen.

4
5

OFFICER TRAVIS JONES:

6

CENTRAL:

7

OFFICER JOHN WILBURN:

8
9
10

15

10-4.
Thank you.

OFFICER TRAVIS JONES:
Central 709.
CENTRAL:

18

709.

CENTRAL:

(Inaudible.)

OFFICER JOHN WILBURN: — to
05. Can you pull down here to my unit for just
a second?

19

UNKNOWN OFFICER:

20

CENTRAL:

21
22

1760.

I show you 60.

UNKNOWN OFFICER: I'm 10-8
with the ambulance, 10-6. En route to
Sweetwater ER. Riding in ambulance with 10-15.

23
24

Yeah.

OFFICER TRAVIS JONES: 10-98,
10-8 from here en route to the Pride to meet
with THP.

16
17

705.

OFFICER JOHN WILBURN:
09, is that good?

13
14

Central 705.

CENTRAL: Be advised, that
would be 10-4 to meet at the Pride, They're
about two miles out.

11
12

10-4.

CENTRAL:

Copy that.

(Inaudible.)
OFFICER BRIAN MILLSAPS:

25

CENTRAL:

505.

505.

VOLUNTEER COURT REPORTING
WWW.

(865) 207-2278
volunteercourtreporting.com

/\

/>/

21
1
2

OFFICER BRIAN MILLSAPS: I 'm
10-8 from up here, I'm en route to the Pride
to meet THP.

3
CENTRAL:

10-4.

Midnight 08.

4
UNIT 789:
5

CENTRAL:

Central 789.
789.

6
Unit 789:

7

CENTRAL:

10-8.
10-4.

Midnight 09.

8
UNIT 514:

Central 514.

9
CENTRAL:

514.

10
UNIT 514:
11
12

CENTRAL:

Midnight 15.

UNKNOWN OFFICER:

13
14

Show me 10-8.

(Inaudible.)
14, can you

go to channel 4?
OFFICER BRIAN MILLSAPS:

15

Central 505.
CENTRAL:

16
17

505.

OFFICER BRIAN MILLSAPS:
10-6 here at the Pride.

18
CENTRAL:

10-4.

Midnight 21.

19
UNIT 1760: Central 1760.
CENTRAL: 1760.

20
21

UNIT 1760:

We're 10-97 at

Sweetwater ER.
22
CENTRAL:

(Inaudible.)

23
OFFICER BRIAN MILLSAPS:
24
25

Central 505.
CENTRAL:

505.

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

A?

22
1
2

OFFICER BRIAN MILLSAPS: Can
you give me that VIN again? Read it off to me.
CENTRAL:

3

Yeah.

10-4.

You

ready to copy it?

4

OFFICER BRIAN MILLSAPS:

Go

ahead.
5
6
7
8

CENTRAL:
1FABP3194GT145947.

That will be

OFFICER BRIAN MILLSAPS:
going to read it back to you.
1FABP3194GT145947.

9

CENTRAL:

10

I'm

You got it.

OFFICER BRIAN MILLSAPS:
Central 505.

11

CENTRAL:

12

OFFICER BRIAN MILLSAPS:

13

505.
10-81

time originally?
CENTRAL:

Original 10-81 at

14

2243.

15

OFFICER BRIAN MILLSAPS: 10-4.
Thank you. If you can there, the best you can,
I'll be down there in a little bit and try to
get them times from you.

16
17

CENTRAL:

18

UNIT 1774:

Copy that.
Central 1774.

19
CENTRAL: 1774.
UNIT 1774: 10-98 at the Esso.

20
21

-k'k'k'k-k'k'kic-k

22

OFFICER TRAVIS JONES:

Central

709.
23
24

CENTRAL: 709.
OFFICER TRAVIS JONES: 10-8
for me with THP here at the Pride and not the
Esso (inaudible.)

25
CENTRAL:

109.

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

.S3

23

1
•k'k'k'k'k'k'k'k-k'k

2

CENTRAL:

3

789.

4

UNIT 789:
That'll be 10-8 verbal.

5

Status?

UNIT 506:

10-4.

108 Central

10-4, Josh.
Monroe County 506.

6
OFFICER BRIAN MILLSAPS:

7
8

UNIT 506:

505.

Are you and 21 at

the Esso?
•k'k'k'k’k'k'k'k'k'k

9
10

OFFICER BRIAN MILLSAPS:
Central 505.
CENTRAL:

505.

11
OFFICER BRIAN MILLSAPS:
12
13
14
15
16
17
18
19
20

705.

CENTRAL: Copy. 10-6 jail.
OFFICER JOHN WILBURN: Central
CENTRAL:

CENTRAL:

Copy that.

OFFICER JOHN WILBURN: If you
would log extra patrols; Sugar Maple Court,
Battle Trail, Atkins Road.
CENTRAL:

22

UNIT 713:

23

CENTRAL:

25

705.

OFFICER JOHN WILBURN: If you
would log extra patrols; Sugar Maple Court,
Battle Trail, Atkins Road.

21

24

10-6

here at the jail.

Copy that.
Central 713.
713.

UNIT 713: I'll be 10-6
(inaudible) from the ER, en route to the Esso.
CENTRAL:

Two o'clock.

VOLUNTEER COURT REPORTING
(865) 207-2278 _
www.volunteercourtreporting.com

24
1
2

1760 (inaudible.)

3

UNIT 713:

CENTRAL:

4

(Inaudible) advise

10-4.

OFFICER BRIAN MILLSAPS:

505

to 709.
5
OFFICER JOHN WILBURN:
6

did you call me?

7

OFFICER BRIAN MILLSAPS:
trying to get 9, Captain.

505,
I was

8
OFFICER JOHN WILBURN:

10-4.

OFFICER TRAVIS JONES:

9.

9
10

Go

ahead, Sergeant.

11

OFFICER BRIAN MILLSAPS:
10-20?

12
OFFICER TRAVIS JONES:
13

(Inaudible.)

14
15

OFFICER BRIAN MILLSAPS:
OFFICER TRAVIS JONES:

16

10-4.

•k-k-k-k-k-k-k-k-k-k

17

18

21

here at the Esso.

OFFICER TRAVIS JONES:

Central

709.
CENTRAL:

19

709.

OFFICER TRAVIS JONES:

20

894MPY.

29's, please.
21
22

CENTRAL:
'94 Dodge, green
in color. Curtis and Lena Watts, Philadelphia.
29's negative.

23
24
25

OFFICER TRAVIS JONES:

10-4.

UNKNOWN OFFICER: If you don't
care, meet me right there at TMZ on 11 there.
VOLUNTEER COURT REPORTING
(865) 207-2278 _
www .volunteercourtreporting.com

25
1

UNKNOWN OFFICER:
Switch over for a minute, sir.

Okay.

UNKNOWN OFFICER:

10-4.

2
3

(Inaudible.)

4

UNKNOWN OFFICER:
box numbers on that side of it.

— about the

5
UNKNOWN OFFICER:
6
7

Well, I'm

not either.
•k'k'k-k'k'k-k'k'k-k

8
9

(End of Audio Recording)

10
11
12
13
14
15
16
17
18
19
20

21
22
23

24
25

VOLUNTEER COURT REPORTING
(865) 207-2278
www.volunteercourtreporting.com

r

26

C E 4' T I F I C A T E

1
2
3

STATE OF TENNESSEE:

4

COUNTY OF KNOX:

5
6

I, Lynn S. Fields, Licensed Court Reporter

7

and Notary Public, do hereby certify that I

8

transcribed in machine shorthand from audio recording

9

the above proceedings, that the foregoing pages,

10

numbered 1 to 26, inclusive, were typed under my

11

personal supervision and constitute a true and

12

accurate record of the proceedings, to the best of my

13

ability.

14

I further certify that I am not an attorney

15

or counsel for any of the parties, nor an employee or

16

relative of any attorney or counsel connected with

17

the action, nor financially interested in the action.

18
19

Witness my hand and official seal this
25th day of June, 2018.

20
21
22

Lynn S. Fields, TN LCR# 279

23

and Notary Public

24
25

My Commission Expires:

VOLUNTEER COURT REPORTING
(865)207-2278
www.volunteercourtreporting.com

4/7/19

